<html>
<title> - THE QUARTERLY CARES ACT REPORT TO CONGRESS</title>
<body><pre>[Senate Hearing 116-412]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-412

 
               THE QUARTERLY CARES ACT REPORT TO CONGRESS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING TESTIMONY FROM THE SECRETARY OF THE TREASURY AND THE CHAIRMAN 
  OF THE FEDERAL RESERVE, AS REQUIRED UNDER TITLE IV OF THE CARES ACT

                               __________

                            DECEMBER 1, 2020

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban Affairs
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
                                


                Available at: https: //www.govinfo.gov /
                
                
                             ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
43-445 PDF            WASHINGTON : 2021 
 
                 
                


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      JACK REED, Rhode Island
TIM SCOTT, South Carolina            ROBERT MENENDEZ, New Jersey
BEN SASSE, Nebraska                  JON TESTER, Montana
TOM COTTON, Arkansas                 MARK R. WARNER, Virginia
MIKE ROUNDS, South Dakota            ELIZABETH WARREN, Massachusetts
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              DOUG JONES, Alabama
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
KEVIN CRAMER, North Dakota           KYRSTEN SINEMA, Arizona

                     Gregg Richard, Staff Director

                Laura Swanson, Democratic Staff Director

                    Catherine Fuchs, Senior Counsel

                Brandon Beall, Professional Staff Member

                 Elisha Tuku, Democratic Chief Counsel

           Corey Frayer, Democratic Professional Staff Member

                      Cameron Ricker, Chief Clerk

                      Shelvin Simmons, IT Director

                    Charles J. Moffat, Hearing Clerk

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                       TUESDAY, DECEMBER 1, 2020

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    45

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     3
        Prepared statement.......................................    46

                               WITNESSES

Steven T. Mnuchin, Secretary, Department of the Treasury.........     6
    Prepared statement...........................................    48
    Responses to written questions of:
        Senator Brown............................................    53
        Senator Tillis...........................................    53
        Senator Cortez Masto.....................................    54
        Senator Sinema...........................................    55
Jerome H. Powell, Chairman, Board of Governors of the Federal 
  Reserve System.................................................     8
    Prepared statement...........................................    48
    Responses to written questions of:
        Senator Toomey...........................................    56
        Senator Menendez.........................................    58
        Senator Cortez Masto.....................................    58

              Additional Material Supplied for the Record

Statement of CUNA, submitted by Chairman Crapo...................    61
Statement of NAFCU, submitted by Chairman Crapo..................    64
Statement of NAR, submitted by Chairman Crapo....................    68
Treasury response, submitted by Senator Menendez.................    70
KTKR article, submitted by Senator Warner........................    76

                                 (iii)


               THE QUARTERLY CARES ACT REPORT TO CONGRESS

                              ----------                              


                       TUESDAY, DECEMBER 1, 2020

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10 a.m., in room SD-106, Dirksen 
Senate Office Building, and via Webex, Hon. Mike Crapo, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will now come to order.
    This hearing is in a hybrid format, and the hearing room 
has been configured to maintain the recommended 6-foot social 
distancing between Senators, witnesses, and other individuals 
in the room necessary to operate the hearing, which we have 
kept to a minimum.
    For those joining remotely, a few videoconferencing 
reminders which you should all be very familiar with at this 
point.
    Once you start speaking, there will be a slight delay 
before you are displayed on the screen. To minimize background 
noise, please click the ``Mute'' button until it is your turn 
to speak or ask questions. If there is a technology issue, we 
will move to the next Senator until it is resolved.
    Once again, I remind all Senators and our witnesses that 
the 5-minute clock still applies. Those remote should have on 
your screen one of the boxes labeled ``Clock'' that will show 
how much time is remaining. We have had some trouble getting 
those boxes on everybody's screen, apparently, or at least 
getting everybody to be able to find them and follow them. And 
so we are going to continue a practice that we started at the 
last hearing. At 30 seconds remaining, you will hear a bell 
ring to remind Senators that their time is almost expired. I 
encourage the Senators and our witnesses to recognize that bell 
and wrap things up on the answers as well as the questions in 
time to keep within the 5 minutes.
    To simplify the speaking order process, Senator Brown and I 
have again agreed to go by seniority in this hearing.
    Today we welcome the witnesses to the Committee to provide 
testimony as required under Title IV of the CARES Act. Our 
witnesses are: the Honorable Steven T. Mnuchin, Secretary of 
the Department of Treasury; and the Honorable Jerome H. Powell, 
Chairman of the Board of Governors of the Federal Reserve 
System. Welcome to both of you.
    On November 19, Treasury Secretary Mnuchin requested for 
the Federal Reserve to return unused funds that had been 
appropriated under Title IV of the CARES Act for 13(3) 
facilities and direct loans.
    I agree with Secretary Mnuchin on the success of the 13(3) 
facilities and the termination language in the CARES Act.
    The 13(3) facilities funded under the CARES Act were 
effective and fulfilled their purpose to stabilize markets, 
facilitate credit flow, and provide liquidity.
    The Wall Street Journal editorial board summed it up well: 
``All of these programs were created in an emergency at the 
onset of the pandemic when the financial markets were in danger 
of melting down.''
    Adding that, ``The programs worked. Even as the pandemic 
and Government shutdowns have waxed and waned, financial 
markets have healed. Lending spreads have fallen, and liquidity 
is ample in nearly all markets.''
    The most recent Federal Reserve Financial Stability Report 
pointed to some of these successes.
    It said, ``the announcements of the Primary Market 
Corporate Credit Facility, Secondary Market Corporate Credit 
Facility, and Municipal Liquidity Facility in late March and 
early April led to rapid improvements in corporate and 
municipal bond markets well ahead of the facilities' actual 
opening.''
    The report also said, ``Since the announcement of the 
backstop facilities and funding market stabilization measures, 
more than $1 trillion in new nonfinancial corporate bonds and 
more than $250 billion in municipal debt have been issued, 
purchased almost entirely by the private sector.''
    With respect to asset-backed securities, the report noted 
that, ``Similar to other backstop facilities, while outstanding 
balances in the Term Asset-Backed Securities Facility have 
remained modest, spreads in the asset-backed securities market 
have narrowed considerably, and private market issuance has 
resumed.''
    With just 1 month until the December 31 termination date, 
only $195 billion of the $454 billion needed to be allocated to 
the 13(3) facilities, and those facilities have not been 
extensively used to date.
    Returning the unused $455 billion to Treasury now allows 
those funds to be made available for other important purposes, 
such as providing more targeted relief to sectors of the 
economy that need it most or to reducing the national debt.
    The CARES Act funding supporting these facilities was 
always intended to be temporary.
    Additionally, as was mentioned in both Secretary Mnuchin 
and Chairman Powell's letters, the Exchange Stabilization Fund 
still has non-CARES Act funds that are available, to the extent 
permitted by law, to capitalize any Federal Reserve lending 
facilities as needed.
    In fact, the Fed has four facilities that were set up with 
non-CARES Act funds, including the commercial paper facility 
and money market liquidity facility.
    Although COVID-19 continues to spread across the United 
States and the world, there is hope in the economic recovery 
that we have seen so far and in the reports of promising, 
highly effective vaccine trials.
    However, we continue to look to steps that we can take to 
help Americans and businesses that need it the most.
    Republicans have tried for months to get another targeted, 
bipartisan COVID relief package passed and signed into law to 
provide support for those in need, but Democrats have rejected 
those efforts.
    It is time to find agreement where we can on a targeted, 
bipartisan basis to provide relief.
    Turning for a moment to regulations, the CARES Act included 
other meaningful pandemic-related programs to provide relief to 
Americans.
    I have heard from banks and credit unions concerned about 
breaking through regulatory thresholds that stand to impose a 
much greater regulatory burden due to the temporary growth they 
have experienced from customer deposits and participation in 
pandemic-related programs, like the Paycheck Protection Program 
and the Economic Impact Payments.
    On November 20, the Fed, FDIC, and OCC took an important 
step to mitigating banks' regulatory burden by giving community 
banks under $10 billion more flexibility to use their asset 
size on December 31, 2019, for applying various regulations.
    I appreciate the banking agencies taking this action, which 
will foster a more certain regulatory environment for these 
banks and incentivize their participation in future pandemic-
related programs, should they be needed.
    Secretary Mnuchin, as you know, housing finance reform 
remains a top priority of mine, and last year I released a 
housing reform outline which builds upon many of the same 
principles from previous efforts.
    While my preference was for Congress to pass a bipartisan 
deal, it is long past time to make the hard decisions and 
address this last unfinished business of the financial crisis.
    Because of that I would encourage you and the Director of 
the FHFA to continue to take important steps that move the 
system in the right direction. The status quo continues to be 
unacceptable.
    I want to thank each of you for joining the Committee today 
to discuss the CARES Act and other critically important issues.
    Before I turn to Senator Brown for his opening, I also want 
to take some time to thank both Senators McSally and Jones for 
their contribution and time to this Committee.
    I have enjoyed working with them, spending time with them, 
and getting to know them, and they will be missed. I wish you 
both the best.
    And, finally, I want to thank Senator Brown and his staff 
for the time we have worked together on this Committee.
    I have appreciated our time together on this Committee, and 
our friendship, even if at times we may not have seen eye to 
eye.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. Welcome, Secretary 
Mnuchin and Chairman Powell. Good to have both of you here.
    I would like to second what Chairman Crapo just said. I 
want to thank Doug Jones and Martha McSally for their service 
on this Committee. They both contributed a great deal. Thank 
you.
    And since this is Chair Crapo's last hearing of this 
Committee, I believe, thank you for your leadership, decency, 
and patience. Mike, you can run but you cannot hide--since I 
also serve with you, obviously, on the Finance Committee.
    I want to thank your Staff Director, Gregg Richard, for his 
work and the rest of your staff, Laura in our office, and 
working together has been really meaningful and productive.
    We have worked together to deliver results--working to 
strengthen our review of foreign investment, to hold Russia and 
North Korea accountable, to give American manufacturers the 
tools they need to compete through a strong Ex-Im Bank, and to 
continue to protect our communities from terrorism attacks. I 
look forward next year to working with our colleague Senator 
Toomey on these and other issues.
    I also appreciate Chair Crapo and his staff's work to hold 
so many of our hearings virtually during this pandemic. 
Protecting the people who work in the Capitol from this virus 
should not be a partisan issue. On this Committee it largely 
has not been. I wish I could say the same throughout this 
building and throughout the Senate. It is something I wish 
there were more of with our Government.
    Chair Powell and Secretary Mnuchin, in the 2 months since 
you were last here, the situation around the country has only 
gotten worse. The virus is spreading unchecked, job losses are 
up, economic growth is declining.
    The number of new daily COVID-19 cases is up four-fold; 
daily deaths have more than doubled. In many parts of the 
country, the case numbers and hospitalizations are worse than 
in the spring.
    I spent much of yesterday talking to hospital leaders 
around my State. All feel besieged. All are doing their work. 
The health care workers surely, as we know, are heroes. We 
simply do not give them enough support.
    Just last week, 748,000 people filed for unemployment 
insurance. Millions more have been out of work since April.
    In October, 3.4 million homeowners were past due on their 
mortgages. Many of them will run out of forbearance options by 
April. As many as 40 million renters will spend the holidays 
worrying that they will be evicted on January 1st if their 
Government--if we do not--if their Government does not do its 
job.
    Behind all these numbers are real families who are doing 
their best, trying to figure out how to get by. During 
Thanksgiving week, there were hours-long lines at food banks 
across the country.
    This is an extraordinary crisis that requires extraordinary 
action. We have had a President who has simply given up on 
leading the country.
    And as far as I can tell, Secretary Mnuchin, you are 
leaving the country worse off than you found it.
    With that record, it is pretty obvious why 80 million 
Americans voted for new leadership, a decisive margin.
    And rather than using your final months in office to work 
for the people whom you have sworn to serve, you appear to be 
trying to sabotage our economy on the way out the door.
    After the election, you canceled the Federal Reserve 
lending programs, taking away critical tools to invest in the 
people and the communities and the small businesses that make 
this country work.
    There is no legitimate justification for it.
    I met yesterday with 60 restaurant owners remotely, by 
Zoom, 60 restaurant owners in this State, my State. All of them 
are struggling, as you know.
    Either you are purposely trying to stop President-elect 
Biden and Treasury Secretary Designee Yellen from getting to 
work for the people we all serve, or you are delusional that 
you think because the stock market is up--and I understand 
taking the lead from the President that when the stock market 
is up, everything is fine.
    Either way, it is malpractice.
    It was only the end of October when you finally reduced the 
minimum loan size for the Main Street program to $100,000 so 
the program would actually work for small businesses and 
communities. But now, after all the waiting and adjusting, the 
Main Street program finally gets going, and you take away 
another tool to help American businesses and workers.
    Even the policy head at the Chamber of Commerce said that 
shutting down the emergency lending programs ``closes the door 
on important liquidity options for businesses at a time when 
they need them most.''
    It is always the same story. As you know, Mr. Secretary, 
when the biggest banks and the largest corporations need help, 
their allies in Washington spring into action. But when the 
rest of the country needs investment and support, you want to 
pretend we just cannot afford it.
    You cited congressional intent as a flimsy justification 
for your decision.
    I can tell you right now, we did not intend for struggling 
businesses to have to wait over 3 months to have access to the 
lifeline provided in the CARES Act; we did not intend for the 
loan requirements terms to be amended several times; we 
certainly did not intend for the legislation passed in March to 
be the only efforts the United States of America would take to 
fight a once-in-a-generation crisis.
    Anyone who has watched the news at all in the last month 
would know this is the time for action, not for retreat.
    We are watching hospitals fill up again. Our health care 
system is overwhelmed. Gig workers and self-employed workers 
will lose their unemployment insurance just in 5 weeks--4 
weeks. Small businesses and local governments are running out 
of money.
    It did not have to be this bad.
    We have the world's largest, greatest economy. We have the 
resources to rise to meet the challenge.
    But, Secretary Mnuchin, you appear to believe this is the 
best we can do.
    In this election, Americans made it clear that they did not 
buy that.
    They have had enough of aiming low, of being told ``we 
cannot afford it, we cannot solve problems, we cannot govern, 
we cannot do this.''
    We know we can do better. We have done it before.
    Remember what Bill Spriggs in front of this Committee said 
in September. We did not win World War II by worrying about 
whether or not we could afford it. We were in a global crisis. 
We marshaled all of our vast resources and talent to rise to 
meet it. We grew the economy from the middle class out; we paid 
down the debt with rising wages.
    And if we have learned anything from this crisis, it should 
be that we can do the same thing again.
    Remember what we did in March? Unanimously, Mr. Chairman, 
we came together, we took action, and it made a real difference 
in people's lives. In the face of mass layoffs, we put money in 
people's pockets. We helped them pay their bills. We kept 
spending in this economy. We kept 13 million people out of 
poverty.
    Those restaurant owners yesterday in Ohio said their 
situation is more perilous today than it was back in February 
and March and April and May. So it means that we should do a 
comparable kind of action.
    And what we did in March helped everyone, including the 
stock market that you love to brag about.
    There is no reason--other than a lack of political will--
that we cannot do the same.
    A worker who is about to lose her job does not care about 
the date on the calendar or who is sitting at the Secretary's 
desk. They care about results.
    Secretary Mnuchin, if you and President Trump will not 
deliver them, the least you can do is get out of the way.
    I know Chair Powell has been clear in previous hearings 
that we need more stimulus to have any chance at a real, broad 
economic recovery. We need a big stimulus package, one that 
reaches beyond Wall Street--the sort of emaciated McConnell 
version reached beyond Wall Street--to Main Streets in 
Cleveland and Boise and Scranton and all over this country, and 
that shows up in people's paychecks, not just corporate balance 
sheets.
    I hope today the American people will get reassurance that 
the Federal Reserve will be part of that effort.
    It is time for all of us to use every tool available to 
rise to meet this challenge.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Brown.
    We will now proceed to our witnesses. We will go in the 
order I introduced you, and, Secretary Mnuchin, you may 
proceed.

 STATEMENT OF STEVEN T. MNUCHIN, SECRETARY, DEPARTMENT OF THE 
                            TREASURY

    Secretary Mnuchin. Thank you. Chairman Crapo, Ranking 
Member Brown, and Members of the Committee, I am pleased to 
join you to discuss the Department of Treasury's unprecedented 
response to support the American people throughout the 
coronavirus pandemic. We continue to work to implement the 
historic CARES Act with speed, efficiency, and transparency, 
but our job will not be complete until every American gets back 
to work.
    When I last testified before you in September, I stated 
that America was in the midst of the fastest economic recovery 
from any crisis in U.S. history. I am proud to say that while 
there is more work to be done, that statement is even more true 
today. In the third quarter, GDP grew by 33 percent at an 
annual rate, beating all expectations and nearly doubling the 
previous record set in 1950.
    Americans are getting back to work. The October jobs report 
showed that the economy has gained back 12 million jobs since 
April--more than 50 percent of all lost jobs due to the 
pandemic. The private service sector, which includes those 
industries that were impacted by the initial economic 
shutdowns, has regained 58 percent of the lost jobs. The 
unemployment rate decreased to 6.9 percent, a rate not expected 
to be achieved until the fourth quarter of 2021.
    The historic, bipartisan CARES Act provided the economic 
relief critical to supporting our robust economy. Additional 
economic shutdowns, however, continue to impair this remarkable 
progress and cause great harm to American businesses and 
workers.
    Based upon the recent economic data, I continue to believe 
that a targeted fiscal package is the most appropriate Federal 
response. I strongly encourage Congress to use the $455 billion 
in unused funds from the CARES Act to pass an additional bill 
with bipartisan support. The Administration is standing ready 
to support Congress in this effort to help American workers and 
small businesses that continue to struggle with the impact of 
COVID-19.
    Treasury has been working hard to implement the CARES Act 
in a transparent and efficient manner. We have released a 
significant amount of information to the public on our website, 
Treasury.gov, and on USAspending.gov. In many instances, we 
have released more information than what is required by the 
statute.
    We continue to cooperate with various oversight bodies, 
including the new Special Inspector General, the Treasury 
Inspector General, the Treasury Inspector General for Tax 
Administration, the new Congressional Oversight Commission, and 
the GAO.
    We have provided regular updates to Congress, with this 
marking my eighth appearance before Congress for a CARES Act 
hearing. We have also devoted significant resources to 
responding to numerous congressional committees and individual 
members of Congress on both sides of the aisle. We appreciate 
your interest in these issues. We remain committed to working 
with you to accommodate Congress' legislative requests and to 
further advance our whole-of-Government approach to defeating 
COVID-19.
    I would like to thank the Members of the Committee for 
working with us to provide critical economic relief to the 
American people, and I am pleased to be here to answer any 
questions.
    Chairman Crapo. Thank you.
    Chairman Powell.

STATEMENT OF JEROME H. POWELL, CHAIRMAN, BOARD OF GOVERNORS OF 
                   THE FEDERAL RESERVE SYSTEM

    Mr. Powell. Chairman Crapo, Ranking Member Brown, and other 
Members of the Committee, thank you for the opportunity to 
update you on our ongoing measures to address the hardship 
wrought by the pandemic.
    Our public health professionals continue to deliver our 
most important response, and we remain grateful for their 
service.
    The Federal Reserve, along with others across Government, 
is using its policies to help alleviate the economic burden. 
Since the pandemic's onset, we have taken forceful actions to 
provide relief and stability, to ensure that the recovery will 
be as strong as possible, and to limit lasting damage to the 
economy.
    Economic activity has continued to recover from its 
depressed second-quarter level. The reopening of the economy 
led to a rapid rebound in activity, and real GDP rose at an 
annual rate of 33 percent in the third quarter. In recent 
months, however, the pace of improvement has moderated.
    Household spending on goods, especially durable goods, has 
been strong and has moved above its prepandemic level. In 
contrast, spending on services remains low largely because of 
ongoing weakness in sectors that typically require people to 
gather closely, including travel and hospitality.
    The overall rebound in household spending is due, in part, 
to Federal stimulus payments and expanded unemployment 
benefits, which provided essential support to many families and 
individuals.
    In the labor market, more than half of the 22 million jobs 
that were lost in March and April have been regained, as many 
people were able to return to work. As with overall economic 
activity, the pace of improvement in the labor market has 
moderated. Although we welcome this progress, we will not lose 
sight of the millions of Americans who remain out of work. The 
economic downturn has not fallen equally on all Americans, and 
those least able to shoulder the burden have been hardest hit. 
In particular, the high level of joblessness has been 
especially severe for lower-wage workers in the services 
sector, for women, and for African Americans and Hispanics. The 
economic dislocation has upended many lives and created great 
uncertainty about the future.
    As we have emphasized throughout the pandemic, the outlook 
for the economy is extraordinarily uncertain and will depend, 
in large part, on the success of efforts to keep the virus in 
check.
    The rise in new COVID-19 cases, both here and abroad, is 
concerning and could prove challenging in the next few months. 
A full economic recovery is unlikely until people are confident 
that it is safe to reengage in a broad range of activities.
    Recent news on the vaccine front is very positive for the 
medium term. For now, significant challenges and uncertainties 
remain, including timing, production, and distribution, and 
efficacy across different groups. It remains difficult to 
assess the timing and scope of the economic implications of 
these developments with any degree of confidence.
    The Fed's response has been guided by our mandate to 
promote maximum employment and stable prices for the American 
people, along with our responsibilities to promote the 
stability of the financial system. We have been taking broad 
and forceful actions to more directly support the flow of 
credit in the economy. Our actions, taken together, have helped 
unlock almost $2 trillion of funding to support businesses 
large and small, nonprofits, and State and local governments 
since April. This, in turn, has helped keep organizations from 
shuttering and has put employers in a better position to keep 
workers on and to hire them back as the economy continues to 
recover.
    These programs serve as a backstop to key credit markets 
and have helped restore the flow of credit from private lenders 
through normal channels. We have deployed these lending powers 
to an unprecedented extent. Our emergency lending powers 
require the approval of the Treasury and are available only in 
very unusual circumstances, such as those we find ourselves in. 
Many of these programs have been supported by funding from the 
CARES Act, and I have included detailed information about those 
facilities in my written testimony.
    The CARES Act assigns sole authority over its funds to the 
Treasury Secretary, subject to the statute's specified limits. 
The Secretary has indicated that these limits do not permit 
CARES Act-funded facilities to make new loans or purchase new 
assets after December 31 of this year. Accordingly, the Federal 
Reserve will return the unused portion of funds allocated to 
the lending programs that are backstopped by the CARES Act in 
connection with their termination at the end of the year. As 
the Secretary noted in his letter, non-CARES Act funds in the 
Exchange Stabilization Fund are available to support emergency 
lending facilities if they are needed.
    Everything the Fed does is in service to our public 
mission. We are committed to using our full range of tools to 
support the economy and to help assure that the recovery from 
this difficult period will be as robust as possible on behalf 
of communities, families, and businesses across the country.
    Thank you.
    Chairman Crapo. Thank you, Chairman Powell.
    My first question I think will be toward you, Secretary 
Mnuchin. I am actually quite surprised to hear you criticized 
for following the law in how you have dealt with the return of 
the CARES Act funds. We were in the room together negotiating 
these provisions as the CARES Act was created. And, 
interestingly, it seems to me that the real problem here is--
well, you will recall you and we were accused of creating a big 
slush fund, and now when we have terminated these funds as 
required by the law so that we can utilize them more 
effectively in the next act, the criticism is that this fund 
should not have been terminated.
    I just find that kind of confusing. That is also confusing 
in the context of the fact that we have tried to gut the very 
kind of relief in follow-up legislation that we have now been 
criticized for not doing just a few months ago: extending 
things like the Paycheck Protection Program which would help 
though restaurant workers that Senator Brown mentioned; 
extending and improving it, by the way; redirecting some of 
these funds so that we get to those industries and sectors of 
our economy that have not yet been reached by the 13(3) 
facilities and really need to have a different kind of direct 
support system put into place for them; adding rental 
assistance that we need to have, in my opinion, and which I 
have been working very hard on to try to get. And as we tried 
to get these things, they were rejected by the other side, and 
so it is just confusing to me or a little bit surprising to see 
these kinds of attacks leveled today in this hearing.
    And so, Secretary Mnuchin, could you just help make a 
little sense from your point of view as to why the decision to 
make the return of these funds away from the 13(3) facilities 
at this time is the best thing and what the intent that you had 
was in making that termination?
    Secretary Mnuchin. Thank you, Mr. Chairman. And let me 
first say I want to thank the Senate for passing the CARES Act, 
which was 96-0 in an unprecedented response. And as you know, I 
lived in the LBJ Room for over 2 weeks, so I am very familiar. 
I personally negotiated many of these provisions. As a matter 
of fact, I brought the CARES Act with me because I reference it 
and keep it next to my desk, and, Mr. Chairman, I would just 
ask you to recall, you and I were sitting outside Senator 
Schumer's office with his staff. It was after 1 a.m. in the 
morning on the night that we finally finished this, and I asked 
you to come to sign off on behalf of the Leader and others the 
final red lines. We went through this very carefully. So I 
would direct you to Section 4029, which is very clear, which 
says: ``Except as provided in subsection (b), on December 31, 
2020, the authority provided under this subtitle . . . shall 
terminate.'' It was very clear.
    So my decision--first of all, I want to thank Chair Powell 
because he has been a terrific partner in everything we have 
done, and I really want to thank him and the people at the Fed. 
He and I have been speaking constantly. In deference to him, I 
did extend four of the facilities that used non-CARES money. My 
decision not to extend these facilities was not an economic 
decision. I am surprised to hear Senator Brown use words like 
``sabotage,'' ``no legitimate justification,'' ``delusional,'' 
``malpractice,'' ``time for action.'' I would be more than 
happy, Senator Brown, to come see you and your staff and walk 
you through the legal analysis. But this is perfectly clear. 
The Senate provided unprecedented authority to the Secretary of 
the Treasury in giving me $500 billion. The statute was very 
clear. As a matter of fact, I find it implausible that any 
Member of this Committee believed that in voting for the CARES 
Act you were authorizing me to invest $500 billion to make 
loans in perpetuity.
    So if you do not read this as there is an expiration, then 
you must read this that there was a loophole in the law that I 
could invest the $500 billion forever, had I committed it up 
front, and I do not believe that was the intent.
    I would also just conclude I echo what Senator Brown said 
about restaurants. The President and I believe that restaurants 
have been unfairly targeted, and I would urge Congress to 
support another $300 billion for PPP. This would have a real 
impact. These restaurants need grants. They do not need loans.
    Thank you.
    Chairman Crapo. Thank you. And as you can tell by the bell, 
Chairman Powell, I do not have time to ask you my questions, 
but I will have you respond to them either later in the 
hearing, or else I will send them to you in writing.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Secretary Mnuchin, I see by your testimony today you really 
do not understand what is happening in families across our 
country, almost celebrating your marvelous work of you and the 
President that the country so decisively rejected. One of my 
favorite Abraham Lincoln quotes is he used to talk about going 
out and getting his public opinion bath. It is pretty clear--I 
appreciate what you said about restaurants, but it is pretty 
clear that you have left behind, the Administration has left 
behind, the President is only concerned about seeing something 
that is not there, fraud in an election, as so many Republican 
judges and a few courageous Republican office holders have 
spoken out against.
    At our last hearing, I asked you and Chairman Powell to 
read a piece by ProPublica about a small business owner in 
Cleveland whose business could not get help while the giant 
corporation occupying the same building has gotten plenty of 
taxpayer support while laying off its workers. I am hoping you 
would have read it and made a more serious effort to understand 
what is happening in places like Cleveland and Mansfield and 
Shelby and Springfield, Ohio. Millions of American workers are 
still struggling. Millions more are out of work. All the 
numbers are going in the wrong direction. You would not 
determine that from your comments today, it is clear, and you 
were never serious about fighting--I sat in that room, too, in 
the LBJ Room. It is clear you were never serious about fighting 
for the real people who make this country work. Instead of 
making a deal that would have done more to help them, you 
pushed to make life just a little bit easier for the Nation's 
biggest banks. Now you have killed the CARES Act loans that 
were supposed to be a tool to help smaller businesses and their 
workers and buried the money. It looks like you and the 
President and others in the current Administration are trying 
to spend your final days in office preemptively--I will use 
that word again--sabotaging the next Administration's efforts 
to clean up your mess. But you still work for the American 
people even though I do not think you are acting like it, 
Secretary Mnuchin. I wish you and your Administration would 
stop crowing about the stock market and stop passing the buck 
instead of doing the hard work. President-elect Biden and your 
successor will have to fix the mess you are leaving behind.
    Now, my question is for Chairman Powell. Chairman Powell, 
you will be around at the beginning of the next Administration. 
You will be part of the clean-up crew. You have made clear--and 
I appreciate the conversations we have had where you have made 
clear that Congress needs to do more fiscal support. You have 
also commented recently that even if we take bold action, we 
are not going back to the same economy and that it will be more 
difficult for workers going forward.
    So my question is this: We have seen how the Fed and 
Treasury actions supported the stock market and benefited the 
wealthiest people in this country. What can the Fed do, Chair 
Powell, to make sure that workers do not get left behind again?
    Mr. Powell. Thank you, Senator Brown. So I would say this: 
We have provided and will continue to provide very strong 
support for the economy and for workers in particular through 
the use of our tools, and we remain committed to using all of 
our tools to their fullest extent for as long as is necessary 
to get us through this difficult period.
    We have thought about this collective effort, this 
governmentwide effort, as one that involves getting the people 
and the businesses that constitute the economy across the chasm 
created by, you know, the pandemic, getting them safely to the 
other side, to the postpandemic economy. And I think, frankly, 
that the fiscal policy, particularly the CARES Act, deserves 
the lion's share of the credit in creating that bridge so far.
    It may be that we need more on that front, but from the 
standpoint of the Fed, you can be sure that we will continue to 
use our tools. And, by the way, those tools would include 
Section 13(3) facilities, which remain available to us under 
the law. As the Secretary pointed out in his letter, they can 
be backed up by Exchange Stabilization Funds should the legal 
requirements for such funds be met.
    Senator Brown. Chair Powell, does the Fed have an 
obligation to address the problems of inequality that many 
argue Fed actions have amplified, especially in addressing 
inequality in communities of color?
    Mr. Powell. So I think the inequality is a very important 
and ever more broadly understood problem in our economy. These 
persistent disparities along racial and gender and other lines 
really hold our economy back. I think that the Fed has a 
contribution to make there. It is not the principal 
contribution. I think that really fiscal policy and Congress 
and the private sector, too, have had very important roles 
there. What we can do is a lot of what we are doing, which is 
to focus on maximum employment, which is your order to us--that 
is the goal you have set forth for us--and to really take that 
idea seriously. And I think you have seen with the most recent 
modifications to our operating framework that we are taking it 
seriously and focusing on these issues more as holding the 
whole economy back.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    And before we go to Senator Toomey, I just have to say, 
Secretary Mnuchin, you have been accused of killing the CARES 
Act loans for small businesses. I think that is mostly the PPP 
program, which we tried to reenergize and extend on the floor 
of the Senate, only to have it killed by the other side when we 
were trying to do that. But we will continue to have these 
debates back and forth.
    I turn next to Senator Toomey.
    Senator Toomey. Thank you very much, Mr. Chairman. And, Mr. 
Chairman, as this might be the last Banking Committee hearing 
of your chairmanship, I do want to thank you for your 
leadership and the really hard work and outstanding work you 
have done.
    Chairman Crapo. Thank you.
    Senator Toomey. It has been a pleasure working with you.
    What I want to do is, first of all, I want to applaud 
Secretary Mnuchin for closing the 13(3) facilities by year-end 
exactly as the law requires and as Congress clearly intended. I 
want to thank Chairman Powell for returning the unused CARES 
funds back to the Treasury. The fact is Congress entrusted both 
of you with some extremely powerful, unprecedented, emergency, 
and yet temporary tools, and I commend you for working together 
to deploy those tools for their intended purposes and then 
putting them away now that that specific purpose has been 
achieved.
    And I think it is important to review what was happening 
and why we designed the CARES Act as we did. The fact is, in 
March, we had unprecedented turmoil in our capital markets, 
threatening the ability of businesses, municipalities, and 
States to access capital and credit. Credit markets were on the 
verge of completely freezing up. There was a mass investor 
flight to cash. In many cases, there were no buyers in sight. 
Private credit was not flowing to any institutions that needed 
it. And this freezing of our financial system was a very 
serious threat that it could precipitate a full-blown 
depression that would last for who knows how long.
    Kent Hiteshew, the Deputy Associate Director for Financial 
Stability at the Fed, noted in congressional oversight 
testimony--and I want to quote because he summarizes this very 
well. He said, ``The conditions that prevailed in March were 
unprecedented--far worse than during the onset of the financial 
crisis in late 2008 or even in the days after 9/11, when the 
municipal market was briefly closed. Interest rates soared . . 
. mutual fund investors pulled over $41 billion of assets out 
of the market in less than 3 weeks, and market functioning 
deteriorated to the point that buyers and sellers had 
difficulty determining prices. Ultimately, this meant that 
State and local governments were effectively unable to borrow, 
with most new issues canceled for lack of investor demand.''
    Mr. Chairman, that was the problem that Congress was 
seeking to address, to solve, by providing the CARES Act 
funding for temporary emergency facilities. Congress' intent 
was clear. The facilities were designed to create a liquidity 
backstop until the crisis passed and then cease operations no 
later than the end of 2020 in any case.
    Last week, I would point out that every Republican on this 
Committee signed a letter sent to Secretary Mnuchin and 
Chairman Powell affirming that this is, in fact, our 
interpretation of the law and the intent of Congress.
    I also think it is important to underscore how remarkably 
successful these facilities were in achieving that intended 
purpose of stabilizing credit markets and restoring the flow of 
private credit. In fact, it worked better than I think most of 
us thought even possible. Markets did not just improve. They 
did not just restore liquidity. But we reached record volumes 
of debt issuance. We did so at low spreads, low yields, 
affordable interest rates. Regional banks extended credit to 
their customers, and according to business surveys, unmet 
demand for credit among creditworthy borrowers is almost 
nonexistent.
    So let me go through some of the arguments that we have 
heard for why we should not have closed down these facilities 
because I think they are all mistaken.
    One was that the viability of the credit markets, the 
stability of the credit markets depends on these backstop 
facilities. Well, that has clearly been disproven by the fact 
that the announcement of their end brought absolutely no 
disruption to any financial markets that I can tell at all.
    The second suggestion by some is that, well, we need to 
keep these facilities around because, you know, some bad thing 
might happen someday in the future. Well, it has always been 
the case that you could imagine some bad thing happening in the 
future. If some terrible thing were to happen to threaten the 
viability of our financial markets, then the Treasury and the 
Fed should come back to Congress and ask for appropriate 
facilities at that time.
    Others point out that there are whole industries that are 
actually in big, big trouble. That is a true fact, especially 
travel and hospitality and entertainment, where consumer demand 
has basically disappeared. It is up to Congress to decide what 
to do about that. It is not up to the Fed to lend money to what 
are probably insolvent companies.
    So let us be clear. These facilities were designed for a 
very specific purpose. They achieved that purpose more 
successfully than we could have reasonably hoped, and we should 
not use them to morph into some other purpose like as a 
supplemental and/or complement to fiscal policy.
    I want to thank the Chairman and the Treasury Secretary for 
really the outstanding work they did in helping to ensure the 
viability of our financial markets and thereby avoid a 
prolonged depression.
    Chairman Crapo. Thank you, Senator Toomey.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and let me 
thank Secretary Mnuchin and Chairman Powell for being here 
today.
    Chairman Powell, in your November 5th press conference, you 
said, ``The fiscal policy actions that have been taken thus far 
have made a critical difference to families, businesses, and 
communities across the country. Even so, the current economic 
downturn is the most severe in our lifetimes. It will take a 
while to get back to the levels of economic activity and 
employment that prevailed at the beginning of this year, and it 
may take continued support for both monetary and fiscal policy 
to achieve that.''
    Chairman Powell, how long will it take us to get back to 
pre-COVID levels of economic activity and employment without 
any further fiscal relief this year from Congress?
    Mr. Powell. That would be very difficult to say how that 
would play out in terms of the time. I will say, though, that, 
first of all, the economy has actually performed better than 
expected. It has been more resilient to spikes in cases than 
expected. And so we have had a recovery that has been faster 
than most forecasters have expected so far.
    Nonetheless, we do have a long way to go. We have got on 
the order of 10 million people who lost their jobs because of 
the pandemic, and for reference, that is more than lost their 
jobs during the global financial crisis in the United States, 
so it is a lot of people. So there is a long way to go, and I 
think we can both acknowledge the progress and also point out 
just how far we have left to go.
    As I said earlier, the lion's share of the credit really 
should go to fiscal policy. And, of course, you know, the 
timing and the scope and the size and the components of that 
are entirely up to you. I just point out that we will use our 
tools until, you know, the danger is well and truly passed, and 
it may require help from other parts of Government as well, 
including Congress.
    Senator Reed. Well, thank you, Chairman Powell. Also in 
your November 5th press conference, you pointed out the 
collective desire to ``keeping this episode short as it can be 
and avoiding unnecessary business bankruptcies, unnecessary 
household bankruptcies, unnecessary long-term stays of 
unemployment,'' and ``there is a real threat of those things, 
and . . . we are trying to do everything we can to minimize'' 
them.
    We are beginning to see that right now. Several of my 
colleagues have alluded to the fact that, as these eviction and 
foreclosure moratoriums expire, there could be thousands and 
thousands of people thrown out of their homes, which will 
affect, I think, the financial markets. In that case, it might 
be good to have a facility backed by the CARES Act.
    Some of these issues are not hypothetical. They are not 
sort of a crisis of the future that we do not see. They are 
very real. In fact, they are coming unless we take appropriate 
action, and that would be, I would think, fiscal action.
    Do you think that these threats are just sort of 
substantial or are they almost upon us?
    Mr. Powell. So as I mentioned in my testimony, Senator, I 
think there is a real distinction between the near term and the 
medium term. In the near term, we see the spread of the 
disease. What we are hearing from businesses and from--we meet 
with a group of community bankers that we regularly meet with a 
week or so ago. What we are hearing is that there are a lot of 
small businesses that are at risk of going out of business 
during this winter, which could be a tough few months.
    At the same time, though, we are getting this news about 
the vaccines which are more effective and they have come 
sooner, so there really is, you know, in the medium term, 
upside risk here.
    The other thing I will say is that the fact that the 
economy was in very good shape at the beginning of the 
pandemic, that may be one of the reasons why it has recovered 
faster than we thought and kind of continued to defy 
expectations of problems.
    So I do think those are real risks, though. I think the 
risk of small businesses going out of business, the risk of 
people at the lower end of the income spectrum. At the bottom 
quartile, I think the unemployment rate is still 20 percent. 
These are not people with a lot of savings, a lot of resources, 
or a lot of opportunities right now. And so I think that there 
are parts of the economy that really will need help or might 
need help to get that last span of the bridge in place to get 
to the other side of the pandemic.
    Senator Reed. I think one of the points you are making is 
that the impact of this crisis economically is not shared 
equally by all Americans. There are groups that are 
impoverished now and are on the edge of even worse disasters 
unless we act. And if we do not act, then we will have two 
separate but unequal groups of Americans, and that is not a 
recipe for a country that can move forward.
    Thank you very much.
    Chairman Crapo. Thank you, Senator Reed.
    And before we move to Senator Scott, I would just indicate 
that we are moving in a few minutes into a series of votes on 
the Senate floor. I am going to leave right now to vote early 
on the first vote and then return as quickly as I can, and I 
have asked Senator Tillis, who is present here in the hearing 
room, to chair for me while I am gone.
    Senator Scott.
    Senator Scott. Thank you, Mr. Chairman. And before you 
leave, I would like to say to you thank you for your leadership 
on our Committee. You have done a fantastic job. You have 
listened to both sides. You have led in a bipartisan fashion. 
The people of the Nation are desperate to see their Congress, 
their Senate working well and working together, and, frankly, 
disagreeing is a part of what we signed up for, but looking for 
opportunities to bring the Committee together and bring this 
Nation together. I think you have been a shining example of 
that, Mike, and I want to say thank you for your leadership.
    And to Chairman Powell as well as Secretary Mnuchin, you 
both have done a pretty good job under incredibly negative 
circumstances, and the situation continues to change. 
Certainly, thank you, Chair Powell, for your leadership of our 
Nation under these challenging times. Secretary Mnuchin, you 
have stepped up to the plate and have provided programs and 
resources in a way that we have never seen in the history of 
the country from my perspective, and I thank you for your 
strong leadership.
    With that said, one of the things I have noticed as we have 
worked our way through this pandemic is small businesses have 
been struggling and, frankly, as a former small business owner 
myself, I understand the pain and the misery of being in small 
business. I also remember the thrill of victory more than I do 
the agony of defeat. I remember the blessing of employing 
members from my neighborhoods where I grew up and having folks 
join the team as customers and seeing the revenues increase and 
the opportunities for my employees increase. And one of the 
things that is often missing when we are talking to small 
business owners is the important ingredient that for most of us 
our small business employees are an extension of our family.
    And so when you start talking about the small business 
environment and small businesses being decimated by this 
pandemic, you are actually talking about the fragile nature of 
small business and the absolute implosion of the foundation for 
so many employees around the country. I think we sometimes miss 
the fact that when you are talking about small business, you 
are actually talking about employees who work at the small 
businesses more than you are the small business owner.
    To that end, Secretary Mnuchin, you have watched, as I 
have--and, Chair Powell, you have as well--that 20-plus percent 
of all small businesses fail. That number is even higher for 
Hispanic business owners. They are in the 30s, and that is 
devastating to the community and to the employees of those 
small businesses who now no longer have a job to go to. And, 
frankly, in the African American community, that small business 
number is in the 40s.
    My question, Secretary Mnuchin, is: Minority-owned 
businesses have been the hardest hit in this COVID-19 economic 
slowdown. Do you agree with the assessment that direct 
assistance, tailored assistance for those in similarly situated 
businesses would have a wide rippling benefit to the economy?
    Secretary Mnuchin. I do, Senator, absolutely. And, you 
know, I would say despite the success of Project Warp Speed and 
the fact that we will have vaccines distributed in large mass, 
the problem is now, as you said, these small businesses cannot 
wait 2 or 3 months. So I would urge Congress again to 
reallocate unused money and more money to PPP, do a set-aside, 
as we did last time, particularly for the underserved areas. I 
know that you and Senator Warner and others have worked on a 
possibility of $10 billion to be invested into CDFIs which 
could lend $100 billion into underserved communities.
    So I think there is a lot that can be done and should be 
done very quickly.
    Senator Scott. Thank you, Secretary Mnuchin. I would say in 
addition to what we have already done and what we can do, if I 
am correct, Secretary Mnuchin, what you are referring to is 
that the Paycheck Protection Program still has unused resources 
sitting there, over $100 billion that could be available for 
small businesses right now. If Congress would get their act 
together, our act together and make those funds available to 
the market, that could have a significant positive impact on 
the employees of these small businesses who today simply cannot 
find the way forward.
    With my last few seconds, I think another opportunity that 
we have before us is to look at the Paycheck Protection Program 
forgiveness, making it simple, and it may take congressional 
action for us to simplify the process. Do you see any ability 
from the Administration's perspective to streamline and to 
simplify the process for banks and, therefore, making it easier 
for small businesses to find a little calm and a little comfort 
in knowing that their small business loan that was to be a 
grant is actually going to become a grant?
    Secretary Mnuchin. I will be quite brief in responding, but 
I would say we have created three separate forms, so we have 
done everything we can on administrative action, including a 
separate form for 50,000 or less. But I would urge Congress to 
make changes to the legislation to allow for simpler--and, 
again, I would urge Congress to reallocate the $140 billion 
that is sitting there that can have an enormous impact for 
small businesses and the PPP immediately.
    Senator Scott. Thank you, Secretary, and that can be done 
today. We can do that today if we decide to do so. I am 
supportive of that concept.
    Thank you so much.
    Senator Tillis [presiding]. Senator Menendez.
    Senator Menendez. Thank you very much.
    Secretary Mnuchin, according to the National Bureau of 
Economic Research, at least 3.3 million small businesses have 
closed, 441,000 of which are black-owned small businesses, and 
657,000 of which are Latino-owned businesses; 1.1 million State 
and local employees have lost their jobs, according to the 
Bureau of Labor Statistics. You do not dispute those figures, 
is that fair to say?
    Secretary Mnuchin. I do not have them in front of me, but I 
have no reason to dispute them. I assume you are quoting them 
accurately.
    Senator Menendez. So how many more small businesses do you 
project will permanently shutter after you end the CARES Act 
lending facilities? How many more State and local employees 
will be laid off as a result of your decision?
    Secretary Mnuchin. Again, let me be clear, Mr. Senator. My 
decision is a legal decision, not an economic decision. 
Congress can reauthorize this money if you want to extend it. 
But I think those small businesses need grants. They do not 
need loans. They cannot qualify for Main Street. That is why 
Main Street did only $10 billion. And they need PPP money.
    Senator Menendez. Well, let me just say that you cited 
earlier, in response to, I believe, the Chairman's questions, 
Section 4029 of the CARES Act as the reason that you had to 
close down these facilities. What is wrong with that recitation 
is that this provision applies to Treasury's authority to 
invest in new facilities and not the ability of those 
facilities to make loans to companies in the real economy.
    So while I agree with you on grants, in the interim we need 
to use every tool we have. No one will be better off after you 
end the CARES Act facilities. As we enter a third wave of 
COVID, I think ending these facilities is not mandated by law. 
It is important as an economic backstop. It will have real and 
harmful consequences on our recovery, on our businesses, on 
American workers.
    You know, during your previous appearances before the 
Committee, not a single member--we went through the record--
even suggested that you should close the facilities. In fact, 
most of us on both sides of the aisle--Chairman Crapo, Senator 
Brown, Senator Tillis, myself, and others--have been urging you 
to make changes to the facilities so that they could provide 
more relief to businesses and State and local government.
    As a matter of fact, in October, in response to questions 
from the Congressional Oversight Commission, you did not say 
that the CARES Act legally required you to end the facilities. 
You just said you did not think that they were needed.
    So, Mr. Chairman, I ask that the Treasury Department's 
responses to the Congressional Oversight Commission dated 
October 16th be entered into the record.
    Senator Tillis. Without objection.
    Senator Menendez. So there is a choice here, and, 
unfortunately, the choice you are making is really 
consequential to businesses, to people, to our recovery.
    Mr. Secretary, last Tuesday, a Treasury Department 
spokesperson said that you plan to put the $429 billion you are 
withdrawing from the Fed's lending facilities into the 
Treasury's general fund. Is that a correct statement?
    Secretary Mnuchin. Again, let me just first comment on the 
first part. I do not agree with your reading, OK? I believe 
that the section applied to direct and indirect, and had you 
thought it applied otherwise, there would be a loophole, and 
there would be no point of having the date. I was never asked 
about the December 31st date, and I always assumed that if 
Congress wanted to extend that, they can.
    Now, as regards to the proceeds, let me direct you to 
Section 4003, which talks about the deposits of proceeds. 
Again, it is my intent to completely follow the law, and the 
law requires the amounts transferred to go to the financing 
account and then to repay any money lent to Treasury. So, 
again, we will completely follow the law. This is not 
discretionary. Again, I urge Congress----
    Senator Menendez. Let me----
    Secretary Mnuchin. ----if you want to extend this, bring 
back legislation which would authorize me to do it.
    Senator Menendez. You can keep putting the onus on Congress 
when, in fact, you have the abilities--let me read to you 
Section 4027 of the CARES Act that provides Treasury with the 
appropriation of these funds, ``On January 1, 2026, any funds 
described in paragraph (1) that are remaining shall be 
transferred to the general fund of the Treasury . . . .'' It 
does not say ``by'' or ``no later than January 1, 2026.'' So 
these funds being moved ultimately undermines--I hope, Chairman 
Powell, that you will commit to not return any funds to the 
Treasury until we are assured in Congress and the public that 
those funds will remain in the Exchange Stabilization Fund as 
required by the CARES Act.
    Secretary Mnuchin. Just for the record, they do not go back 
into the Exchange Stabilization Fund, as I cited in the act.
    Senator Tillis. Senator Cotton.
    Senator Cotton. First off, I want to join our colleagues in 
thanking Chairman Crapo for leading this Committee so ably. I 
do want to point out, though, to paraphrase Mark Twain, reports 
of his demise may be greatly exaggerated. He is not going 
anywhere. He is still going to be a Senator. He is simply going 
to be chairing the Finance Committee next year. But we have all 
appreciated his leadership.
    The economy is recovering more strongly than I think anyone 
predicted in March, and I think that is important because of 
the response of this Congress in the CARES Act at first and 
then in the way the Trump administration--in particular, the 
Department of the Treasury and the Federal Reserve--has 
directed it. So I want to commend both you gentlemen on your 
stewardship over these last 9 months.
    Now, the economy could continue to recover even more 
strongly, in effect, and especially for those people who are 
still struggling the most, the waitresses and the busboys, the 
bartenders, the karate instructors, the music teachers, people 
who work in fields and industries that have lots of in-person, 
close, continual contact. So there are two things we could do 
to help solve that problem immediately.
    One is to tell these Democratic Governors and mayors to 
stop with the irrational lockdowns. Tell the Governor of 
California, Gavin Newsom, not to lock down small mom-and-pop 
restaurants while he goes off with all of his lobbyist buddies 
to eat at the French Laundry, one of the world's most expensive 
and exclusive restaurants, paying $300 for caviar and truffles.
    Second, for Congress to pass a new coronavirus relief bill. 
We all have bipartisan agreement to support those people who 
are still in need, yet Chuck Schumer and Nancy Pelosi will not 
relent on their $3.5 trillion wish list. They want to hold up 
funding for small businesses and for restaurants and for 
industries like airlines, money to help schools reopen in some 
States, or stay open as the case is in Arkansas, so they can 
get things like welfare checks for illegal immigrants or they 
can override State voting laws or let violent felons out of 
prison--things that have nothing to do with the coronavirus. 
Those are the two most important things we could do to help 
those who are still struggling from this virus get back to work 
until vaccines are approved and widely distributed.
    What will not help, what was not designed to help were the 
13(3) programs that have been so much a point of discussion in 
this conversation today. The 13(3) facilities have achieved 
their purpose. The reason we wrote it and the reason Members of 
this Committee helped draft that language in March was to 
stabilize credit markets to help ensure the flow of credit to 
fundamentally creditworthy businesses and States and cities. It 
was not to subsidize unsound or failing businesses that were 
not going to be able to succeed before China unleashed this 
plague on the world. It was not to bail out fiscally 
irresponsible, most Democratically led States and cities who 
had mismanaged their finances for years or even decades. It was 
to stabilize credit markets.
    And I have to say it appears at the time there was some 
bipartisan concern that these funds could be misused. I will 
just quote from a few people what they said at the time about 
our Treasury Secretary.
    Joe Biden referred to these facilities as a ``$500 billion 
slush fund and a blank check.''
    Ironically, Senator Brown, given the fact that he accused 
Secretary Mnuchin today of sabotaging the recovery or intending 
to drive the economy off in a ditch, said at the time the 
money, $425 billion, that the Secretary of the Treasury can 
decide is a slush fund or where to direct that money.
    Senator Warren said that we are at $450 billion slush fund 
that would go to the Secretary of the Treasury to help whoever 
he wants.
    And, ironically, given what Senator Menendez just said to 
Secretary Mnuchin, this bill has a $425 billion slush fund with 
which basically the Secretary of the Treasury can say, I like 
you, you get this; I do not like you, you get nothing.
    I guess the shoe may be on the other foot now, and it seems 
like the Democrats, with the hope of having a new Secretary of 
the Treasury and a new Administration, would like a $450 
billion slush fund to reward politically favored organizations 
like, I do not know, abortion providers or marijuana 
dispensaries or maybe to bail out their partisan allies in 
States and cities that have mismanaged their finances for 
years.
    But that is not what the law says, and that is the point 
that Secretary Mnuchin has been making all along, if I am not 
mistaken. This is not an economic decision. This is a legal 
decision. This law was designed from the beginning to stabilize 
credit markets at the height of the uncertainty of this 
pandemic in the spring, and that is exactly what it did. 
Secretary Mnuchin does not have legal authority to keep these 
programs in place. He took the right action. And if our 
Democratic colleagues want this money to be available, then 
they need to work with us to pass new legislation.
    Thank you.
    Senator Tillis. Senator Tester.
    Senator Tester. Thank you, Acting Chairman Tillis. And I 
also want to thank Senators Jones and McSally for the 
opportunity to serve with them on this Committee and in the 
U.S. Senate. And I also want to thank Chairman Crapo for his 
evenhandedness and his ability to work with both sides of the 
aisle and, quite frankly, unlike the last Senator, actually 
bring people together and not divide them. So I appreciate 
Senator Crapo in that regard.
    Look, I have the feeling we are at a fulcrum here where the 
economy still is in very, very difficult conditions, and not 
that what Senator Toomey did not say was not correct 6, 8 
months ago. It was correct. But we are not out of the woods 
yet, and, Chairman Powell, I have the feeling that if we just, 
you know, fold up our hands and walk away, that this economy 
not only might, it will slip backwards over the next few 
months. That might be by design by some that serve in the U.S. 
Senate or in the Administration, but it certainly is not my 
goal. And so I would like Chairman Powell to highlight the 
importance of additional fiscal support for the success of the 
economy moving forward.
    Chairman Powell, you talked about the folks out there who 
continue to hurt, and I will tell you that I think it is bigger 
than just the PPP program extension. I think our health care 
system is, quite frankly, stressed to the max. In Montana, I am 
not sure there are any beds available for this pandemic right 
now. They are all full. And I can tell you I think that is the 
way it is in many parts of the States. So when we talk about 
not locking down, go bury our heads in the sand and assume that 
this pandemic has not even happened and it has no importance, I 
have got news for you. My wife has been in treatment for 
cancer, and the cancer she will survive. If she gets this 
COVID, I am not sure she will. So I think we need to wake up in 
the U.S. Senate when it comes to who is locking down what and 
the reasons for it.
    But, that aside, without any other comments, I would just 
say, Chairman Powell, can you talk about the importance of 
addressing our health care business, our hospitality 
businesses, our working families that, as you have said, some 
are in really tough shape, local governments. And, by the way, 
mismanaged local governments? Give me a break.
    The U.S. Senate under some of the best economic times ever 
borrowed $1 trillion a year, and you accuse local government of 
mismanagement? Holy mackerel. It is hard for me not to cuss. 
But--and educational units.
    So, Chairman Powell, could you talk a little bit about what 
is really needed out there, where this economy may slip back? 
Do you see it the same way I do?
    Mr. Powell. Thank you, Senator. So I think I would put it a 
little bit in context. You know, we have done a lot, and we 
really appreciated the working relationship we have had with 
Treasury on the facilities and thank them for the productive 
work we have been able to do together. Our thinking is that we 
would have left facilities in place to be backstops. We do not 
question the Secretary's decision about the CARES Act money 
because that is entirely his decision to make. But I think 
central banks generally would have done that.
    In terms of what more may be needed, we are hearing a lot 
from our discussions with people throughout the Federal Reserve 
System and across the country about small businesses that may 
struggle during this period of just the next few months, during 
the winter, with the spread of the virus high. And it is those 
people who are in public-facing jobs in vulnerable industries, 
and, you know, they may see what may be the light at the end of 
the tunnel in the middle of next year as the vaccines come out 
and are widely distributed. But they may need more help to get 
to that place, and so that is the way we are looking at it. We 
will continue to use our tools to their fullest extent, and 
that will include 13(3) facilities if appropriate--if 
appropriate--and if they meet the legal requirements, but it 
may also include direct help to businesses that really do not 
need to borrow anymore. As the Secretary was noting, some of 
these businesses, what they need is, you know, fiscal policy, 
is a grant to get them through this last bit of the pandemic 
rather than borrowing more through a Federal Reserve facility.
    Senator Tester. And I think we all agree with that. In the 
end, if nothing is done--and I do not think anybody on this 
Committee, at least I hope not everybody on this Committee 
wants nothing to be done. But by the same token, I do not think 
we go into a job and do it half-assed either. I think there are 
plenty of folks out there who are hurting big time, and I am 
not just talking workers. There are workers that obviously are 
that are looking for a job for so long that they are actually 
falling off the unemployment rolls. But small businesses, 
whether we want to pound our chests or not, but local 
governments that have been put in a situation because of 
reduced income because of this pandemic are in a tough 
situation, educational units because there are many schools 
that are doing dual distance learning and in-person need 
additional dollars. Do you see us sliding backwards if we do 
nothing, or do you see the economy being static for an extended 
period of time?
    Mr. Powell. I think there is a risk. I would characterize 
these as risks. The economy has continued to perform better 
than we expected. It has been more resilient to further 
outbreaks than we have expected. At the same time, this is a 
very large outbreak, and what we are hearing suggests that 
there is a real risk of small businesses and people who are 
unemployed for extended periods, and I think those are real 
risks that should be taken into account.
    Senator Tester. I want to thank both Chairman Powell and 
Secretary Mnuchin for being here today. I appreciate your work.
    Chairman Crapo [presiding]. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    First of all, Mr. Chairman, I would like to say thank you 
to you for your leadership on the Committee, and I do 
appreciate the fact that we have been able to do some things on 
a bipartisan basis, and that has a lot to do with your hard 
work.
    Chairman Crapo. Thank you.
    Senator Rounds. I would also like to thank both of our 
guests here today. Chairman Powell and Secretary Mnuchin, I 
think you have done very, very good work under some very trying 
circumstances. But I would like to begin my questioning today 
with Secretary Mnuchin.
    Housing has been one of the bright spots of our economy 
during the pandemic, and I want to make sure that we do 
everything we can to continue providing the necessary support. 
One of the potential threats I see is ending the 
conservatorship of the GSEs. While I agree in a perfect world 
that conservatorship should have been ended some time ago, I am 
concerned that if recent conversations come to fruition and 
Fannie and Freddie are prematurely released from the FHFA's 
control, the strength we have seen in the housing sector could 
be called into question.
    For Secretary Mnuchin, in light of the pandemic, what are 
your recommendations with respect to the timeline for when 
conservatorship can be safely unwound?
    Secretary Mnuchin. Well, let me just say I do not think 
that they should be let out from conservatorship without 
appropriate capital. There are obviously different 
opportunities to accumulate capital and raise capital. This is 
one of the areas that I will continue to try to work with this 
Committee and others. I think there should be housing reform. I 
think that the appropriate scenario is for these to have real 
capital and ultimately them to be released.
    Senator Rounds. Thank you, sir.
    Chairman Powell, a follow-up. The Federal Reserve is the 
largest investor in mortgage securities. Would you share your 
thoughts about the impact to the housing market if an end to 
conservatorship were to occur prior to the time in which the 
pandemic impact has been eased?
    Mr. Powell. I would just echo the Secretary's point that I 
would certainly like to see the GSEs return to private hands 
over time and the housing finance sector and system standing on 
its own two feet with a lot of private capital behind it. So I 
think it is something that time needs to be taken on, and I 
would applaud the new capital standards that have been put in 
place. But that capital still has to be raised, and I do think 
it is something to do carefully, and I know that is consistent 
with what the Secretary is thinking.
    Senator Rounds. Thank you. I appreciate also the 
flexibility that our banking regulators have given financial 
institutions who have wanted to work with customers 
experiencing COVID-related hardships. Unfortunately, not many 
of us thought that the pandemic would last as long as it has, 
and several sectors of the economy, like the airline industry, 
travel, hospitality, all still face challenges.
    What do we need to be doing to support the financial 
institutions who want to continue working with customers in 
these hard-hit industries? I know we talk about targeted and 
specific assistance, but financial institutions have really 
been right in the middle of this whole thing, and the 
expectation has been that we have allowed them flexibility.
    I think it would be very helpful to hear from each of you 
your thoughts on this particular issue, and in this case I 
would ask Chairman Powell to go first.
    Mr. Powell. I think the most important thing is that as the 
economy recovers, companies are recovering, and the more they 
recover and the faster they recover, the smaller the losses 
will be.
    I also think we will continue to encourage banks to work 
with their borrowers and continue to keep in place the very 
targeted relief that we have provided, which does not undermine 
safety and soundness in any way, but that allows banks the room 
to do what they want to do, which is to serve their customers. 
So we would not want supervision and regulation to undermine 
the process of working with customers where it does not 
implicate safety and soundness.
    Senator Rounds. Secretary Mnuchin.
    Secretary Mnuchin. I would just echo the Chair's comments, 
and I think they have done a very good job across regulators in 
providing the right flexibility.
    Senator Rounds. Thank you. And, Mr. Chairman, I will yield 
back my final 15 seconds.
    Chairman Crapo. Thank you. Deeply appreciated.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Let me also echo 
what all my colleagues have said. Thank you for your leadership 
on this Committee, and let me thank you in particular, 
Secretary Mnuchin, and so many of us on both sides of the aisle 
for your help on putting together a plan to help black and 
Latino businesses that have been particularly hard hit by 
COVID.
    Chairman Crapo. Thank you.
    Senator Warner. You may know that this morning a bipartisan 
group of Senators, which I was proud to be part of, announced 
an emergency relief framework that would help us get through 
what I fear will be the worst days of the pandemic coming 
ahead. I do not think the stakes could be higher. We all know 
that UI will start running out for folks the day after 
Christmas. We have seen the food lines across our country. We 
know that small businesses are on their last legs. We know that 
many State frontline workers will soon have to be laid off, and 
literally we could have millions of people put out of their 
homes as early as the middle of January. I think that is simply 
unacceptable, and my hope is that members of the Administration 
and members of the Congress will sit down and figure out 
whether this framework or an alternative can be that bridge and 
we get it done before the holidays.
    It is this bridge--and it is not a long-term plan that I 
know Secretary Mnuchin was negotiating with Speaker Pelosi. It 
is not maybe even what President-elect Biden will want to do. 
But this package, which weighs in at $908 billion, does take 
care of UI. It takes care of student loan assistance. It takes 
care of small businesses with a focus on those CDFIs. It takes 
care of broadband. It takes care of food insecurity. And at the 
end, I am going to make sure I ask both of you whether, without 
knowing the details, do you think generally this is the 
direction we ought to head.
    Let me also take one more minute, because this is something 
that Senator Crapo, Senator Scott, Senator Tillis, a number of 
us on our side have come together on, and that is in this 
package the $12 billion provision for new capital investments 
from minority-owned banks and CDFIs, community development 
financial institutions. We know that black and Latino 
businesses have been particularly hard hit by COVID. We have 
lost 440,000 black-owned businesses that have shut their doors, 
a generation of wealth accumulation that has closed down. We 
know that 40 percent of Latino-owned businesses have closed 
their doors.
    I heard, for example, from Dr. Anna Peoples, a constituent 
of mine who 5 years ago opened up Peoples Pharmacy and Diabetic 
Center in a lower-income neighborhood in Norfolk. COVID-19 hit 
her business really hard, and she said, ``I treat folks the way 
I want you to treat me.'' And when you ask them when they walk 
through the door, I want to receive compassionate care that you 
deserve, that is exactly what they do. Her business is on the 
brink of shutting down, and, Mr. Chairman, I would ask that her 
article from the news story about Dr. Peoples' business be 
entered into the record.
    Chairman Crapo. Without objection.
    Senator Warner. And in my last 2 minutes here, I will ask 
Chairman Powell and Secretary Mnuchin two questions. One, while 
you have not seen the details of the $908 billion plan that was 
bipartisan, bicameral--put out this morning--framework, do you 
think directionally this kind of bridge emergency relief is 
needed at this point? Chairman Powell, would you go first?
    Mr. Powell. I would, of course, defer to you and to the 
Secretary who have authority in this area on the particulars of 
it. But as I have said, I think it sounds like you are hitting 
a lot of the areas that could definitely benefit from help and 
some of the areas that are--these are areas that are going to 
be experiencing a challenging winter. But I cannot really speak 
to the particulars of the bill having not seen it.
    Senator Warner. I understand. I appreciate that.
    And, again, Secretary Mnuchin, I know you know that--while 
you have not seen any of this--I know you were negotiating on 
many of these things, the particulars. Again, directionally, 
without going into the particulars, do you think this kind of 
effort is needed?
    Secretary Mnuchin. Well, let me first say I did comment 
earlier to Senator Scott and I applaud the work that you have 
done on the CDFI program. So whether it is $10 or $12 billion, 
I very much support that. That could create $100 billion of 
lending quickly. I look forward to reviewing with you the 
overall package. I do think that more fiscal response is 
needed.
    I think what is more important is what we can pass quickly 
on a bipartisan basis to target the most difficult parts of the 
economy, hopefully, that will be needed and done quickly. So I 
look forward to following up with you. I missed the press 
conference because I am here testifying.
    Senator Warner. I understand. I promise you we will share 
that with you immediately.
    Mr. Chairman, I just want to appeal to all my colleagues. 
This is our best effort at a framework. I hope everyone will 
give it a reasonable review, and, again, I appreciate your 
leadership on this Committee. Thank you.
    Chairman Crapo. Thank you, Mark.
    Most of our Members are off voting right now, but I 
understand that Senator Warren is with us.
    Senator Warren. I am.
    Chairman Crapo. Go ahead, please.
    Senator Warren. Thank you very much, Mr. Chairman.
    So today more people are getting sick from the coronavirus 
than at any other time during the pandemic. And on top of that, 
the help that many people have relied on is about to disappear. 
So the day after Christmas, 12 million workers will lose 
unemployment benefits. That same week, Secretary Mnuchin will 
be shutting down the Federal Reserve programs that are designed 
to help the economy.
    So, Chair Powell, you have been clear about the need for 
more fiscal support to help families and businesses get through 
this crisis. So let me ask you specifically about help to 
individuals that puts more money in their pockets during an 
economic crisis. This is kind of Economic Stimulus 101. If 
individuals have a bit more cash to spend every month, that 
helps them, but it also helps the economy, right?
    Mr. Powell. Yes.
    Senator Warren. OK. So there are two ways to get more money 
into people's pockets. The first is providing payments like 
stimulus checks or unemployment insurance, which I strongly 
support. The second is by canceling the debts that people owe 
so they can spend that money elsewhere. The largest category of 
household debt other than mortgages is student loans, and most 
of that debt is owed directly to the Federal Government.
    Now, right now those debt payments are paused, but the 
clock is running out. On New Year's Day, the median borrower 
will have to restart paying more than $200 a month to the 
Federal Government. That is at a time when our economy needs 
people to be able to spend more money, not less.
    So, Mr. Chairman, you have said in testimony before 
Congress that you think that rising student debt is ``the main 
concern'' when looking at the overall household debt picture. 
You have also said, ``It has been rising fast and is now large. 
There is increasing evidence that shows that students who 
cannot pay that debt have difficulty having normal economic 
lives and buying homes and things like that.''
    Mr. Chairman, would you agree that high levels of student 
debt will have a negative impact on our economic recovery is 
millions of households have to reduce spending in order to make 
debt payments?
    Mr. Powell. So others and I have been calling out the 
rising student debt for some years now, particularly----
    Senator Warren. Yes, you have.
    Mr. Powell. ----since we have singled it out for not being 
able to be forgiven in insolvency among all different kinds of 
debt. So that is a longer-term problem.
    In terms of what appropriate relief would be, what relief 
would be appropriate here in the current situation, I would 
have to defer to those who have authority to make that 
decision.
    Senator Warren. Well, I am not asking you about what the 
question is about what Congress should do. I am asking you the 
question about what it does to the economy if people who, 
instead of spending that money in the economy, are spending 
that money by sending money back to the Federal Government on 
their student loan payments. That is a problem for the economy, 
is it not?
    Mr. Powell. Certainly, people who are weighed down by debt 
in a situation like this where they may be unemployed, where 
unemployment is very high among, for example, low-wage workers, 
that can weigh on economic activity, yes.
    Senator Warren. Fair enough, but I think we started with 
Economic Stimulus 101; 200 bucks is 200 bucks that could be 
spent in the economy.
    Now, Mr. Chairman, you have also noted that student loan 
debt has another impact on a struggling economy, and that is 
that student loan debt makes it harder for people to qualify 
for mortgages, to buy homes, to start small businesses. You 
have noted that those things drag our economy down. Do you 
still feel that way?
    Mr. Powell. Yes, so I think data are showing that over 
longer periods of time, people take on student debt in an 
effort to make their lives better and brighter, and if that 
does not work out that way, they drag that debt down through 
their economic lives, and it can get in the way of their credit 
history, of course, and their ability to own a home and their 
whole economic life for many years.
    Senator Warren. Right, and then that has an overall impact 
on the economy in terms of home sales or in terms of business 
startups. Is that right?
    Mr. Powell. Yes. In effect, those people are unable to 
participate perhaps in the economy to the full extent that they 
might be able to, which would weigh on the economy.
    Senator Warren. Thank you, Mr. Chairman. You know, I know 
you have said you do not know how you could be clearer on 
pushing Congress to act on more fiscal stimulus, and I agree 
entirely with you on that. But most types of economic stimulus 
are pretty much impossible when Republicans in Congress refuse 
to take action. Aid to State and local governments, 
unemployment benefits, checks for families--right now 
Republicans are blocking help on all of these. But student loan 
debt is different. All on his own, President-elect Biden will 
have the ability to administratively cancel billions of dollars 
in student loan debt using the authority that Congress has 
already given to the Secretary of Education. This is the single 
most effective economic stimulus that is available through 
Executive action, and as you have noted in the past, research 
shows that canceling student loan debt would boost GDP, create 
jobs, reduce unemployment, jump-start small business formation, 
support the housing market, promote job and economic and 
geopolitical mobility, and increase the annual incomes of 
borrowers by about $4,000. So it would also help close the 
racial wealth gap. It is time to act. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    And next will be Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Thank you, 
Secretary Mnuchin and Chair Powell, for participating in this 
hearing and for your really extraordinary efforts during this 
difficult time.
    My first question is for Secretary Mnuchin. Where are we 
with negotiations? You have been lead negotiator on behalf of 
the Administration when we were successful and lead negotiator 
when we were not as successful. And I just want to get a sense 
for the public and for the whole Congress so that we are not 
just reading this on Politico where we are with respect to 
coronavirus relief, whether the idea is to pass a stand-alone 
package from your perspective for something to ride on the 
omnibus, and what would your priorities be?
    Secretary Mnuchin. I had a conversation yesterday afternoon 
as well as this morning, a follow-up conversation, with Mitch 
McConnell, Kevin McCarthy, myself, and Mark Meadows. I spoke to 
the President this morning and updated him. We all believe that 
there should be targeted fiscal response. I would say that my 
motivation in the Fed facilities was not political. As I said, 
it was purely legal. But those funds can be reallocated. The 
PPP money can be reallocated. I would say things like PPP and 
unemployment that are running out are high on the list.
    I will be speaking to Speaker Pelosi this afternoon about 
the Government funding. We obviously did not intend for there 
to be another CR. We signed the 2-year caps deal. We wanted to 
get funding done. And I am sure I will speak to her about CARES 
funding as well. So we support targeted, quick relief.
    Senator Schatz. OK. And I will just editorialize for about 
30 seconds here. You know, the election is over, and lame ducks 
are for doing necessary things that we were fighting about 
previously. That is what a lame duck is for, and especially 
during a pandemic, that is what a lame duck is for. And so we 
all need to put our weapons down, and I applaud the efforts of 
Senators Warner and Collins and Coons and others, because we 
really need to deliver relief, and especially because we need 
to recognize that if we cannot get something done during a lame 
duck during a pandemic, that says something about all of us and 
our unwillingness to find a middle ground.
    A separate topic for Chair Powell. I am really encouraged 
to see the Fed discuss climate risks in their semiannual report 
on financial stability. You and I have had several exchanges in 
the past few years about the financial system's vulnerability 
to climate shocks, and I am really pleased to see the Fed 
address this issue head-on. The report calls for increased 
transparency through improved measurement and disclosure and to 
improve the pricing of climate risks.
    So the question I have for you is: What specifically should 
companies be disclosing to enable the accurate pricing of 
climate risks?
    Mr. Powell. Of course, corporate disclosure is really 
something that we do not have responsibility for. I think what 
we are talking about is sort of a general idea. At this stage, 
it is an early stage in trying to understand the implications 
of climate change for financial stability, and thank you for 
calling out our box. I thought that the box we put in our 
Financial Stability Report did a good job of laying out the 
connections that we do see. But I think we are a long way from 
understanding really what that means. I think the public will 
expect that we do figure out what are the implications of 
climate change for financial stability and that we do put 
policies in place. Some of that will be through disclosure, and 
some of it will be through many other channels.
    Senator Schatz. So the Fed staff is actively conducting 
research on climate-related financial risk. What kinds of tools 
are you developing and what kind of data sets do you need to 
measure that risk?
    Mr. Powell. Well, again, it is early to be talking about--
really, as you pointed out, there is a great deal of research 
going on in the economics community and, you know, we have 
probably the largest economic staff certainly in the United 
States, one of the largest in the world, and there are people 
working on climate change and the implications of climate 
change for the economy and for financial stability. And it is a 
little early to say exactly what those tools will do, and I 
guess I ought to start by saying that the broad response to 
climate change on the part of society really needs to be set by 
elected representatives--that is you. We see implications of 
climate change for the job that you have given us, and that is 
what we are working on, is just that aspect of it. The broader 
aspect of it really is for elected representatives.
    Senator Schatz. Absolutely. And, Chairman, I agree with 
you. Risk is risk. You are charged, at least partly, with 
measuring the risk in the financial system. You are not charged 
with solving climate change. That is the policymaking part of 
the Government. But it is important that you fulfill your 
statutory mandate to make sure that risk is measured 
accurately.
    And one final thought here. I am not sure it is so much 
that it is early. I think it is more that this stuff is hard. 
And I concede that this stuff is difficult, that we want to 
develop common platforms, we want to develop common tools and 
data sets so that we do this intelligently and responsibly. But 
it is not early. It is just that this stuff is difficult to do, 
and we want to give you the space to do it right. But we cannot 
take several years to develop these tools and data sets.
    Thank you.
    Chairman Crapo. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Powell, has the Federal Reserve done a State-by-
State analysis of how much money State governments have 
received from Congress to bolster their economy and how much of 
that money they have left to spend?
    Mr. Powell. Senator, I am confident somewhere in the 
Federal Reserve System that information does exist. I do not 
have it close to hand, though.
    Senator Kennedy. Well, what does that information show?
    Mr. Powell. Honestly, I would have to get the information 
in front of me to be able to answer that.
    Senator Kennedy. Then how do you know State governments 
need more money?
    Mr. Powell. Well, I did not say today that they did need 
more money. But I would say we do know that at the aggregate 
level--I can give you some data that I believe is true, and 
that is that States that have particularly high sort of tourism 
as part of their economy are feeling this significantly, and 
they have got much lower tax revenue, so they are feeling that. 
States that do not really have exposure to travel and leisure 
may not have had much of an effect at all. So it does vary 
quite a bit. But there are States--I think Florida, for 
example, I read has lost something like 11 percent of its 
revenue overall. I cannot fact-check that in real time here, 
but that is a statistic that I saw. So I think it varies a lot 
State to State.
    Senator Kennedy. On November 16th, the Wall Street Journal 
reported that California recently reported that its tax revenue 
for this fiscal year is running 19 percent above projections. 
Do you disagree with that?
    Mr. Powell. I do not have any reason to, no.
    Senator Kennedy. In the same analysis, the Journal reported 
that personal income tax revenue in October in California was 
$1 billion or 16 percent higher than the previous October, and 
sales taxes were up 9.2 percent. Is that consistent with the 
Fed's information?
    Mr. Powell. I have not seen any information at the Fed. As 
I mentioned, I think the bigger fact is that State and local 
government revenues, tax revenues, have been less affected so 
far than we thought they would, and there is a lot of research 
on why that might be. Nonetheless, State and local governments 
have laid off more than a million people, and some States are 
feeling this. The ones that are more exposed to the travel and 
leisure industry, for example, are actually really feeling that 
pinch.
    Senator Kennedy. The Wall Street Journal on November 16th 
also reported that in New York State, overall tax revenue was 
up 4.3 percent in September compared to September 2019. A large 
part of the reason for that is that New York State taxes 
unemployment benefits. Do you have any reason to disagree with 
that?
    Mr. Powell. No, sir.
    Senator Kennedy. OK. The Journal also reported that 
personal income tax revenue in Connecticut increased 2.9 
percent in September from the previous year, and in the fiscal 
year that started in July, income tax receipts in Connecticut 
are running 0.3 percent ahead of last year and sales tax 
revenue is up 5.3 percent. Do you know if that is accurate or 
not?
    Mr. Powell. I do not.
    Senator Kennedy. OK. Do you believe that Congress should 
appropriate money to States and allow those States to use that 
money to support their pension systems?
    Mr. Powell. I think that is a question for you, sir.
    Senator Kennedy. Well, I am asking you, Mr. Chairman. You 
have been pretty vocal about--and I am not being critical. I 
appreciate the advice, but about the need to pass another 
coronavirus bill. Do you think we should allow the States to 
use the money to shore up their retirement systems?
    Mr. Powell. I think States provide critical services. I 
think at least some of them had significant hits to revenue. I 
think they have laid off more than a million people. They are 
very big employers, one of the largest employers in the 
economy. So I have always said it is an area where I think it 
is worth looking, an area----
    Senator Kennedy. Don't you think--I am sure you would agree 
with this. Don't you think, though, that before we appropriate 
more money, we should actually base the decision on empirical 
data like how much have we given each State, how much have the 
States spent, how much have they just--how much of that money 
do they have still just sitting there? Don't you think we ought 
to approach it as opposed to just using anecdotal evidence?
    Mr. Powell. Certainly, I would not recommend you use 
anecdotal evidence, but really these questions are way off my 
range. You know, we do not have views or express views on 
really specific fiscal questions. We try to stay at a high 
level.
    Senator Kennedy. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. And thank you, 
Chairman Powell, Secretary Mnuchin, for your testimony. 
Listening to both of you, there is clearly agreement that we 
need more fiscal relief.
    Mr. Chairman, you said on October 6th that, ``Too little 
support would lead to a weak recovery, creating unnecessary 
hardship for households and businesses.'' And more recently, as 
the cases from the pandemic have accelerated, you have said, 
``There has not been a bigger need for it in a long time,'' 
meaning fiscal relief. And President Trump in October tweeted 
out, ``Go big or go home'' to Congress.
    Just picking up on Senator Schatz's comments and others', 
we do need to get this done. We cannot go home before the end 
of December without addressing the urgent needs and the pain 
that American households and small businesses are facing.
    So, Chairman Powell, first to you, I assume you agree today 
with the statements you made previously about the urgent need 
for substantial fiscal relief.
    Mr. Powell. When I said this is the most urgent need, I was 
talking about the whole pandemic. I was talking about, you 
know, the need for the CARES Act and I was not trying to speak 
about the need for another full CARES Act at that point in 
time. That is what I believe I was referring to. It is a couple 
of months ago. But, yes, my view really has not changed. I 
think that the risk of overdoing it is less than the risk of 
underdoing it. That is the record of pandemics and crises. You 
know, people are always worried about doing too much, and you 
look back in hindsight and you say, ``Well, we did not do too 
much. We might have done a little more and done it a little 
sooner.''
    I think we tried to live with that lesson this time with 
the CARES Act and with the things that the Fed did and other 
parts of Government. We really did act aggressively.
    So I would just say that we have come a long way. The CARES 
Act did a tremendous amount of good. We can see what may be the 
light at the end of the tunnel with the vaccines, and we at the 
Fed will keep at it until we are really done, and I think that 
some fiscal support now would really help move the economy 
along as well, at least to guard against those downside risks 
we have been talking about, smaller businesses, households, and 
others who are directly affected.
    Senator Van Hollen. Well, I agree, and with respect to 
State and local governments, I was listening to your discussion 
with Senator Kennedy, and I would say 1 million people who have 
lost their jobs is not anecdotal. That is real. As you pointed 
out, those are people who no longer have an income and, 
therefore, are relying on a safety net until we get everybody 
back to work.
    Secretary Mnuchin, again, I quoted President Trump back in 
October saying to Congress, ``Go big or go home.'' Just 
recently he tweeted again, ``Go big and be focused. Make it big 
and focused.'' So do you share the President's view that we 
continue to need to go big on fiscal relief?
    Secretary Mnuchin. I do believe we need more fiscal relief, 
and I think there is more work to be done. As I said in my 
testimony, I think fortunately the CARES Act has worked and the 
numbers are better than they were 2 months ago. But I would 
urge Congress to pass something quickly to make sure we get 
something done in this session.
    Senator Van Hollen. I could not agree with you more, and I 
know that you were engaged for a period of time with Speaker 
Pelosi and others. What was the Trump administration prepared 
to do in terms of its top-line number at that time? Because the 
Chief of Staff to the President was quoted as saying somewhere 
around $1.2 trillion or more. Is that accurate?
    Secretary Mnuchin. Well, I think as you know, we made lots 
of proposals along the way. There were different proposals and 
different components, and as I said earlier, I spoke to Leader 
McConnell and McCarthy and Meadows this morning, and the 
President, and we will continue to work with Congress to try to 
get something done quickly.
    Senator Van Hollen. Mr. Secretary, you would agree it would 
be a mistake to allow the emergency pandemic unemployment 
insurance to expire at the end of the month, right?
    Secretary Mnuchin. I do believe that is one of the areas. I 
think there needs to be some technical fixes, but I do support 
extending it. I also absolutely support the unspent money in 
the PPP being authorized to be used immediately.
    Senator Van Hollen. And you also supported--I was the 
President did--funding for some State and local government 
relief. I can tell you I had a conversation this morning with 
the general manager of the Washington Metro Transit System. You 
can read on the front page of the Washington Post Metro Section 
today that they are going to lay off 1,200 people in December 
and that their budget for next year, if they do not get any 
more relief, contemplates another over 2,000 people.
    So I hope we will all recognize that we have got to do 
something. There seems to be a lot of running room between the 
two positions that have been outlined, and I just think it 
would be shameful if Congress goes home and the 
Administration--if we are not able to do this before the end of 
the month.
    So thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Jones.
    Senator Jones. Thank you, Mr. Chairman. And thank you to 
both of our witnesses for your service.
    Secretary Mnuchin, you and I have not had as much personal 
interaction, but I wanted to tell you how much I appreciate 
your service in some difficult times over the last 2 or 3 
years.
    Chairman Powell, thank you very much for allowing me to get 
to know you, for the work we had. I so much appreciated the 
fact that even though your nomination was going to sail through 
the U.S. Senate, you still made a point of coming to visit with 
me as soon as I got sworn in in January of 2018 to get to know 
me and to understand the office and my work on the Banking 
Committee. So thank you for that.
    I would like to kind of revisit something that I have 
talked about on many occasions, and that is the racial 
inequalities that we witness in this country.
    As the Nation kind of grapples with the racial inequality 
we have seen, the Federal Reserve's recent survey of consumer 
finance kind of caught my eye. It highlights longstanding, 
substantial wealth disparities between families in different 
racial and ethnic groups. The typical white family has eight 
times the wealth--eight times the wealth--of the typical black 
family and five times the wealth of the typical Hispanic 
family.
    Raphael Bostic, President of the Federal Reserve Bank of 
Atlanta, recently published a paper arguing that the country's 
racial economic gaps were cemented over centuries and called on 
the Fed to reduce racial inequalities and bring about a more 
inclusive economy.
    Let me say very quickly that I know coming from a State of 
the Old Confederacy that most people think that some of this is 
just based on the State Jim Crow laws of years past. But, in 
fact, we all know that this is not just a Southern problem; it 
is not just a Jim Crow problem. Those policies had been 
cemented by policies of the Federal Government, laws passed by 
this Congress, maybe giving some accommodation to white 
Southern segregationists who were in the House and the Senate 
at the time, but laws of housing, health care, even the GI bill 
really kind of cemented the inequalities that have lasted now 
for decades.
    So initially to you, Chairman Powell, as we go forward--I 
do not want to look back right now. I want to look forward, 
because as we are coming out of this pandemic, we have got some 
real opportunities, I believe, to address these inequalities in 
health care and the economy in so many areas. So what can the 
Fed do as we come out of this economy? What strategies would 
you recommend to kind of address the inequality we see in the 
economy, whether it is minority businesses or individuals?
    Mr. Powell. So these are longstanding inequalities over a 
very long period of time, and there is a real concern that we 
have at the Fed that the pandemic will make that worse because, 
of course, minorities are overrepresented in these service 
industry jobs that were so heavily affected by the pandemic, so 
there is a concern that things will get worse. And, you know, 
the last couple of years were very encouraging because as the 
longest expansion in our recorded history continued, we 
actually saw the racial unemployment gap diminishing to its 
lowest level since we began measuring it. And so it is really 
disappointing to see that.
    So what can we do going forward? You know, the most 
important thing we can do at the Fed, I think, is to take 
seriously the job of achieving maximum employment, and we have 
now changed our operating framework to acknowledge that maximum 
employment is a broad and inclusive goal, and by that we mean 
that we are going to look at various different measures of 
labor market conditions, including minority unemployment rates, 
frankly, and minority participation, labor force participation 
rates and wages and things like that. We are going to look at 
all of those things as we try to achieve our maximum employment 
goal.
    The last thing I will say is I think we also enforce fair 
lending laws in our Division of Consumer and Community Affairs. 
We need to continue to do that rigorously. Ultimately, though, 
we will do whatever we can with our tools, but really it is 
going to take a broader attack on these problems than just the 
Fed alone can mount.
    Senator Jones. Thank you, Mr. Chairman.
    Secretary Mnuchin, I have got just a few minutes left. Any 
advice that you would give--a few seconds left, actually. Any 
advice that you would give to the incoming Administration or 
the incoming Congress about how to address these from an 
economic standpoint?
    Secretary Mnuchin. Well, as I mentioned earlier, I do think 
the CDFI investments are something that can be done quickly 
that will particularly help minority and underserved 
communities.
    Senator Jones. All right. Thank you, Mr. Secretary.
    Mr. Chairman, if you would bear with me just a couple more 
seconds, I wanted to express my appreciation to you and the 
Ranking Member and to all the Members on the Committee for the 
work that we have had together over the last 3 years. It has 
been remarkable to work with you, to watch the two of you work, 
but also the work that I have done with other Members on the 
Committee on both sides of the aisle. It has been an honor and 
a privilege to work with the entire Committee. I hope that as 
you, Mr. Chairman, move over to another Committee and assume 
additional duties, Chairman Toomey or Ranking Member Toomey, as 
the case may be--we do not know yet--will carry on the work of 
this Committee. I have really enjoyed my time with you over the 
last 3 years, so thank you both very much.
    Chairman Crapo. Thank you, Senator Jones.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman. I want to thank 
both Senator McSally and Senator Jones for their service on 
this Committee. They were serious legislators, and I had the 
opportunity to work with both of them.
    I also want to thank you for your leadership. You will 
leave it in good hands, but I am going to miss you as our 
Chair.
    Gentlemen, thank you for being here. As I heard the 
discussions--I had to go vote. I am sorry I was not here for 
the whole of the hearing. But I remember vividly back in March, 
when we were negotiating--the ``we,'' I say, with Secretary 
Mnuchin and members of the Senate working together--we had an 
underlying set of assumptions, some that proved to be true, 
some did not. We knew we needed to do something big, bold, and 
fast. Then we came up with the CARES Act. And I think the 
Paycheck Protection Program saved a lot of jobs. I also think 
the Main Street Lending Facility was a necessary facility even 
though at the time very few of us thought that it would be 
fully subscribed, and that has proven to be true.
    We also made certain assumptions about how long this virus 
was going to impact the economic base. There were a lot of 
people thinking 90 days, 6 months, on the out side maybe the 
end of the year, which was the basis for the date that 
Secretary Mnuchin mentioned.
    Well, things have changed, and I for one think that we do 
have to provide a bridge to what should be a trending positive 
environment maybe sometime in the second half of next year if 
we make certain assumptions about the manufacturing and 
distribution of the vaccine that I think can be valid with the 
historic approval of two vaccines in less than a year.
    But, Secretary Mnuchin, I have to remind everybody of what 
you have said. You have said that you think that these dates 
are important and that Congress needs to act. But you have also 
in the same breath said that we need hundreds of billions of 
dollars more in the Paycheck Protection Program to provide that 
bridge, that stabilization. Is that your basis for that, that 
we just need to cover that window of opportunity probably 
through the second half of next year?
    Secretary Mnuchin. That is correct, maybe the first quarter 
or second quarter.
    Senator Tillis. And, Chairman Powell, I think you feel the 
same way. I do not think that we are necessarily talking about 
something on the scale of either the first CARES Act or the 
HEROES Act, but something that does provide some of the 
fundamentals for the businesses, and I think that they do need 
to be grants, not loans. But do you agree with that window that 
we really need to provide the bridge based on the inmate we 
have today?
    Mr. Powell. I think the bridge is exactly the right way to 
think about it. I do not have a view on exactly how much that 
needs to be, but that is the way we can see the end. We just 
need to make sure we get there.
    Senator Tillis. One thing--and, Chairman Powell, this may 
be for you--of the 10 million jobs that are still outstanding, 
has there been any analysis on the length of time that they are 
likely--in North Carolina, we have about 19,000 restaurants; 
4,000 of them have closed permanently. So there is a structural 
element of unemployment where, even when the economy comes 
raging back, the job creators are not going to come back in 
time to see pick-up saving in the second half.
    So do we have any analysis on the amount of unemployment 
that, if we provide additional stabilization funds, if we see 
the trending in the right direction with the vaccine--what is 
our structural deficit for that remaining unemployment? How 
much of that is structural long term versus likely to bounce 
back as the economy bounces back because the jobs are there as 
the business reopens and expands?
    Mr. Powell. That really is the big question we have been 
asking ourselves, and you have to make a lot of assumptions to 
have an answer about that. It really is what does the 
postpandemic economy look like, and I think the faster we get 
there, the sooner the vaccines arrive, et cetera, then the 
smaller that number of people who are structurally unemployed 
will be. And there are various numbers. We will be happy to 
share something with you, with your office, if you would like.
    Senator Tillis. In my closing time, number one, I just want 
to thank you all for the extraordinary leadership in the job. I 
want to thank the banking industry for actually being a partner 
that helped us make the Paycheck Protection Program a success. 
I believe that we have to look at programs to take a look at 
the first-in, last-out industries. We have talked about a lot 
of them, restaurants, live performances, motor coaches, 
transportation. There is a lot of work that needs to be done, 
but I do not think anyone can rightfully criticize or suggest 
that the CARES Act has not been anything short of the MVP for 
stabilizing the economy when we hit the crisis, and you guys 
were two people on the team that made it successful.
    I do not believe that we should be asking Secretary Mnuchin 
to do Congress' job. If Congress is serious about funding 
Paycheck Protection, if they are serious about stabilizing the 
economy, then get serious about passing a follow-up to the 
CARES Act.
    Thank you, Mr. Chairman.
    [Pause.]
    Senator Tillis [presiding]. And now I guess I am Mr. Chair. 
Senator Cortez Masto.
    [No response.]
    Senator Tillis. Senator Smith.
    Senator Smith. Well, thank you, Mr. Chair. And hello, 
everyone.
    First, I just want to say it does my hear good to see my 
colleague Senator Doug Jones, who I am used to sitting next to 
on the Banking Committee, and, Doug, I just want to thank you 
so much for your service, and we are going to miss you. And 
thanks also, of course, to Senator McSally.
    I know that the Chair is not here, but I want to also thank 
Chair Crapo for his leadership. He has been nothing but 
welcoming to me, and I think, though, as Ranking Member Brown 
said, we do not always agree, I always feel that there is a way 
for us to work together, which is so important.
    I want to just start by saying I want to add my voice to 
the many voices on this Committee today who have said that it 
is really important that we get something done to help families 
and small businesses that have been really struggling through 
this pandemic. We have got to get something done. And I also 
agree that we should not make perfect be the enemy of the good 
here. That is what I am hearing in Minnesota. And I have to say 
I have never worked anyplace where I heard more people talking 
more loudly about the need for action with less action 
happening.
    I have not had a chance to see what our colleagues, a 
bipartisan group, have put together yet this morning, but I am 
encouraged by that and hope that that will take us somewhere. 
And I might ask my Republican colleagues to bring this up with 
Senator McConnell when you all have lunch together in a couple 
of minutes, because there is a great need for action here.
    I want to actually pivot to something and have a little bit 
of a dialog with you, Chair Powell, about this. You have used, 
I think very appropriately, this metaphor of how we need to 
build a bridge to a postpandemic recovery. You point out that 
our economy has been responding better than we expected, but we 
still have a really, really long way to go.
    And, you know, we also know that we are seeing long-term 
trends in inequality which make it harder and harder to 
generate the economic activity, the spending that is going to 
drive growth in the long term, and that is what we see because 
of raising long-term trends in inequality that are holding back 
spending for families of color, minority businesses of color. 
This is something several of my colleagues have brought up 
today.
    So, Chair Powell, could you just talk a little bit about 
this? And I am especially interested in using your bridge 
analogy. You know, what are the risks of not building this 
bridge? What happens if we do not take this action right now 
and the long-term impacts of this growing inequality on our 
economy postpandemic?
    Mr. Powell. Thank you, Senator Smith. So these disparate 
economic outcomes across racial and other lines are a 
longstanding feature of our economy. They have been with us for 
a very long time, and there is a great risk that the pandemic 
is making them worse because the people who are most affected 
by the job losses were people in relatively low-paying parts of 
the service industry that happens to skew more to minorities 
and to women. And so there is a real concern that if we do not 
act as quickly as possible to support those people, get them 
back to work, get the economy up and running as much as 
possible, that we will leave behind a more unequal situation, 
which is tragic because we actually had been making good 
progress on these issues for the last few years. As the very 
long expansion, the longest in our recorded history, went on, 
we started to see the gains go more to people at the lower end 
of the income spectrum. We saw racial income gaps declining, 
racial gaps in labor force participation, and unemployment 
declining. We saw some very constructive things. But waiting 
for the eighth or ninth year of an expansion is not a perfect 
strategy.
    So I think there really is an issue of wanting to do as 
much as we can to avoid exacerbating these longstanding 
differences and get back to a strong economy where we can start 
making progress again, which is what we were doing just back in 
February.
    Senator Smith. Right. And, you know, as the Fed Chair and 
as the Fed, you have the dual mission of low unemployment and, 
you know, managing inflation, hitting inflation target rates. 
What if the Fed, in this need to spur job growth--and we see 
that there has not been a big worry about inflation in the long 
term. What if the Fed were to lower its target for employment, 
you know, lower to 3 or even under 3 percent? What impact might 
that have on addressing long-term needs for addressing 
inequality?
    Mr. Powell. Actually, we have made a change in our 
operating framework which I think addresses that directly, and 
that is, while we are going to have an estimate of the natural 
rate of unemployment, we are not going to act on that, even if 
unemployment goes below that, unless we see inflation or some 
other problematic thing that seems to be linked to where our 
rates are. So we are not going to preemptively raise rates 
until we see actual inflation now as a consequence of low 
unemployment. And I think that is a lesson that we learned 
during the last expansion when we saw very low, 50-year lows in 
unemployment with really no--and very high participation, 
really as strong a labor market as we have seen in my lifetime 
without inflation acting in a way that was concerning.
    Senator Smith. Thank you, Chair Powell.
    Thank you, Mr. Chair. And I also want to extend my thanks 
to Secretary Mnuchin for his service. Thanks very much, 
everyone.
    Secretary Mnuchin. Thank you.
    Senator Tillis. Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman. And thank you to 
the two witnesses, of course, for being here.
    Let me just also say congratulations to Chairman Crapo on a 
wonderful 2 years as Chairman. You have been great to me and to 
the whole Committee, and I really appreciate your approach.
    Also, thank you to Senator McSally and Senator Jones. We 
will miss you both, and we are very grateful for your service.
    Now, it should not surprise anybody that the issue on my 
mind and one that I pretty much wake up thinking about every 
day and wondering how we are ever going to tackle it, of 
course, with the CARES Act is PPP forgiveness. Secretary 
Mnuchin, I just want to address a couple things directly to 
you. You know, of course, that Senator Menendez and I, along 
with Senator Tillis and Senator Sinema and about 28 of our 
closest friends and allies from both political parties have 
introduced a forgiveness bill, Senate bill 4117. It takes all 
the loans at $150,000 or less, a one-page attestation, and 
those would be forgiven. Those $150,000 and less loans make up, 
like I said, 85 percent of the total loans but only 26 percent 
of the dollar amount.
    Both of you, both Chairman Powell and Secretary Mnuchin, 
have said during this hearing that what businesses need are not 
loans but they need grants. Well, forgiveness was a major 
component of our bill, and once again, in my view, Congress did 
what it often does, and it does not prescribe enough of a 
solution, it allows the bureaucracy, which I fear more than the 
devil himself, frankly, to come up with their own rules and 
regulations that are always aimed at CYA, no understanding of 
how a business operates or how it keeps employees. But when we 
passed PPP, as you will recall, it was designed to largely be 
forgiven. It was designed to keep people on the payroll so they 
avoided the unemployment rolls. We encouraged, almost forced, 
small lenders and small borrowers to use the program. I have 
talked to literally hundreds, multiple times, hundreds of 
community banks, consumer banks, large banks, credit unions, 
even Farm Credit Services about PPP and why it needs to be 
utilized. And yet here we are still waiting for another 
package. It is my hope, desire, conviction to work my tail off 
to prescribe a solution to this.
    But in the meantime, Mr. Secretary, I have been very 
disappointed in SBA's response. They seem to use, like the 
bureaucracy always does, their discretion to the advantage of 
the Government, not to the advantage of the small business. Let 
me give you just some specific examples that I have heard from 
my constituents. I am going to give you one borrower example, 
small business, pretty typical, I think. Here is what they 
wrote to me: ``Senator Cramer, please help.'' That is the 
opening line. ``With Congress not passing a new stimulus, it 
leaves many small businesses in a bind. The problem is as we go 
to our bank and ask for an operating loan, they tell us, `Not 
until you get your PPP forgiveness.' ''
    Now, why haven't they gotten it? You know, we have been 
pretty instructive on this.
    ``The bank says until we receive notice from SBA that the 
original PPP loan has been forgiven, they are not going to give 
us the money.''
    Here is how slowly they are working on this particular 
loan. This is a loan of just right at about $100,000. They have 
moved so slow that they needed some pressure from us. So we 
applied that pressure, and here is what it took. It took 9 
weeks--9 weeks, Mr. Secretary--to forgive a $100,000 loan where 
the program was designed for it to be forgiven. This is a small 
motel-hotel operation in Bismarck. Nine weeks. And guess what? 
It took really 9 weeks and 1 day because the day that we made 
the call to inquire at SBA, it finally forgave the loan.
    Now, this is one, this is just one example out of hundreds, 
maybe even thousands. Here is one from a lender before I let 
you answer. Here is a lender that says, ``Just reaching out as 
FYI. SBA has requested additional documentation on 5 percent of 
the loans ranging from $3,700 to $134,000, an average of 
$33,000 per loan. It is a waste of time.''
    So the bureaucracy again always does what the bureaucracy 
is going to do.
    Mr. Secretary, this is very disappointing. This is very 
disappointing to people who did not even want to take loans. 
They could have laid all of these people off. They could have 
gotten that very generous unemployment extension program. But 
they trusted us, and SBA did just what we knew the bureaucracy 
is always going to do. They have extended the time. They have 
asked for more documentation. They have put more demands on 
them. The cost to comply is now $2,000 per borrower, and it 
amounts to billions of dollars.
    Obviously, my time is up. I would love to hear more from 
you. I have got lots more to say about it. But we have got to 
do better than this, Mr. Secretary.
    Secretary Mnuchin. I agree with you. We need to do better, 
and we support legislation to help forgiveness.
    Senator Cramer. But in the meantime, use the discretion. 
Please use the flexibility that the agency has and tell the 
bureaucracy to stop being such a bureaucracy.
    Secretary Mnuchin. We will.
    Senator Cramer. There is a big disconnect between the 
bureaucrat and the business and billionaires and the business. 
We need small businesses to thrive.
    Chairman Crapo [presiding]. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Gentlemen, thank you. It 
is great to see you again. I so appreciate you being here.
    Let me jump right into it. As you know--I talk to you about 
this all the time--I come from Nevada. The hospitality and 
leisure industry has been so hard hit. Nevada's unemployment 
rate now is more than 12 percent. We know that more than 
175,000 people continue to claim unemployment insurance. Just 
the statistics from the American Hotel and Lodging Association 
that nearly 70 percent of hotels may close by the end of this 
year if they do not receive additional Government funding. And 
I will tell you, in Las Vegas and Reno, employment in our 
hospitality and leisure sector is down nearly 25 percent and 14 
percent, respectively. So let me start there with both of you.
    Secretary Mnuchin, what is the Administration and/or what 
are you advocating moving forward that we should do to address 
really the impact that we are seeing on our leisure and 
hospitality industry?
    Secretary Mnuchin. Well, specifically--and I agree with 
you, this industry has been devastated--I believe that the PPP 
could immediately help people. I think that the airlines have 
also been devastated, so we support additional relief for the 
airlines. But hotels, small businesses, entertainment, all of 
these companies could access the PPP.
    Senator Cortez Masto. Well, let me jump back there, because 
when I talk about hospitality and leisure, I am talking about 
restaurants, I am talking about live events, and if they are 
accessing the PPP, they are not looking for loans. And I think 
you said it earlier. It is not the loans that help. It is the 
grants. Isn't that correct? Shouldn't we be looking at 
providing them more opportunities for grants than loans that 
they have to pay back?
    Secretary Mnuchin. Well, the PPP, if it is used correctly, 
is a grant, so it is a loan that should get forgiven without 
the bureaucracy. But, yes, the PPP is effectively a grant, and 
that is what they need, not more loans.
    Senator Cortez Masto. Yeah, effectively it is. But as we 
have heard, there are challenges with it and ensuring--and I 
think the confusion even for these businesses is whether that 
will turn from a loan into a grant is still questionable for 
many of them, and that is why we are seeing the concerns that 
we see for so many not even applying.
    Let me ask you, Chairman Powell, I know you and I have had 
this conversation. Again, do you believe that the hospitality 
and leisure industry needs another stimulus package like a 
comprehensive package for relief to sustain this industry?
    Mr. Powell. I would agree that the industry had really been 
devastated, and the two things it needs is for the pandemic to 
be over, which we really cannot do, and it needs grants, which 
we also cannot do. Our loan programs are really not--you cannot 
overgeneralize, but for most people, most businesses in that 
industry, really what they need is more fiscal support.
    Senator Cortez Masto. That is right. And so let me jump 
back then to another conversation that I have heard on State 
and local governments. Let me just reassure you, gentlemen, 
that the States and local governments need an additional 
relief. My State does, the State of Nevada, for the very 
reasons that I am talking about. We have a budget hole of over 
$1 billion. But that is just not Nevada. That is all of the 
States. There is bipartisan support that I have seen, and as 
most recently as September of this year from the National 
Governors Association, bipartisan support for additional relief 
for State and local governments for the very reasons that we 
are talking about. And so this idea that there are red States 
and blue States or States do not need it or they are going to 
misuse it I think is a misnomer. It is getting in the way of 
really the needs that we have across this country in a 
bipartisan way.
    So let me just reassure you, Governors from Republican and 
Democratic States--or Republican and Democratic Governors are 
both asking for additional relief for State and local 
governments, and we need it for the very reasons I have just 
talked about.
    But let me ask you this. Secretary Mnuchin, jumping back to 
the $454 billion that was appropriated to the Federal Reserve's 
Exchange Stabilization Fund, is it your position that by the 
end of this year, if Congress does not make changes or change 
the legislation, that not only your authority stops but that 
you will actually transfer those additional funds back to the 
State treasury?
    Secretary Mnuchin. Well, I have commented on this several 
times already, and I will repeat it again. My actions are not 
economic; it is purely my interpretation of the law. I think 
the section was pretty clear. I cited it earlier. I would be 
happy to follow up with you or anybody else on this. And as 
regards to when the money comes back, it is fully prescribed 
within the law what happens to the money, so there is no 
discretion on my part.
    Senator Cortez Masto. OK, and that is what I want to get 
back to, because I absolutely agree with you. It is very 
specific in the law, the termination of the authority, of your 
authority, but it is also specific on where that money is 
supposed to stay, and that you do not have the authority to 
transfer it under this law. And I just wanted clarification of 
that. If your legal authorities are telling you something 
differently, or your attorneys, I would like to know that, 
because the way I read it, you do not have the authority to 
transfer this money back to the Fed, under at least the CARES 
Act authority. So please share that with me.
    And I know my time is running out, and I will submit the 
rest of my questions for the record.
    Let me just say, Secretary Mnuchin, thank you for your 
service. It is not an easy thing to do, particularly in this 
atmosphere where there is so much partisanship. I appreciate--
we did not always agree, but I appreciate your service, so 
thank you.
    I also want to thank my colleagues Senators McSally and 
Jones. I have enjoyed working with them, and their 
contributions to this Committee have at least helped me 
understand as well numerous issues that impact this country in 
our financial sector. So thank you all again for your service.
    Secretary Mnuchin. Thank you.
    Chairman Crapo. Thank you.
    And our final Senator who will be telephone is Senator 
Sinema.
    Senator Sinema. Thank you, Chairman Crapo, and thank you to 
our witnesses for being here today.
    You know, Arizonans are struggling to make ends meet during 
the pandemic, and I regularly hear from families and small 
businesses back home that are concerned they will not make it 
through the winter, especially since coronavirus cases are 
spiking across the country. By passing the CARES Act and 
authorizing the Treasury Department's backing of the Federal 
Reserve's emergency lending facilities, we lowered borrowing 
costs for households and businesses alike, protecting jobs and 
stabilizing our economy as we continue to fight the 
coronavirus.
    With cases on the rise, now is not the time to pull back 
critical support for families and businesses in Arizona, and 
that is why I am disappointed by Treasury's decision to 
withdraw financial support for the lending facilities, 
particularly the Main Street Lending Facility. It moves us in 
the wrong direction and puts it really further out of reach for 
people that desperately need it.
    So, Secretary Mnuchin, recognizing that many U.S. 
businesses need direct relief as well as access to credit, do 
you believe that businesses, particularly local restaurants, 
retail businesses, and those in the hospitality industry, have 
what they need right now to survive the winter?
    Secretary Mnuchin. No, I do not. I think that is why I 
encourage Congress to authorize us to spend the $140 billion of 
unspent PPP money so we can give them second loans that, if 
used properly, will turn into grants and save lots of jobs.
    Senator Sinema. Well, this is an area where we agree, 
Secretary Mnuchin.
    Secretary Mnuchin. Thank you.
    Senator Sinema. And I also think that those dollars should 
be released and used by businesses around the country.
    I do hear from business leaders across the State, though, 
that we need to expand and improve, not retreat, the lending 
facilities. And so I am hearing from folks at home that many 
small and mid-sized businesses in Arizona will not make it 
without additional relief, and if they cannot get direct 
relief, they should at least get access to credit. I think they 
should have both. And, of course, this is not just about the 
businesses. This is about the small business owners and the 
workers and their households. There is a lot at stake here, and 
families, jobs, and their homes hang in the balance.
    You know, back home in Arizona, most people do not think 
that Washington cares very much about what happens to them, and 
my concern is that decisions to end the Main Street Lending 
Facility, where things are getting caught up in partisanship 
and procedure and people are losing sight of the end result, it 
makes me think that folks in Arizona might be right to have 
given up on Washington.
    Now, Secretary Mnuchin, if you could just briefly respond 
to my question about the Main Street Lending Facility, we agree 
on funding for PPP, but I would like to hear your thoughts 
about the Main Street Lending Facility and why you think that 
this should be eliminated or ended for mid-sized businesses in 
Arizona and throughout the country?
    Secretary Mnuchin. Well, again, my reason of why it should 
be ended is because there is a December 31st termination date 
in the law. I think it is very clear. I have already cited the 
section. I have it with me. I will not go through it again. I 
would be happy to send it to you. Congress can extend it. I 
personally think that EIDL loans out of the SBA are more 
effective.
    One of the problems with the Main Street Facility was that 
a lot of those small companies that are doing well had access 
to banks, and the companies that did not did not fit the 
program. But, again, it was not a judgment on my part. It was 
merely following what the law prescribes.
    Senator Sinema. Now, Secretary, I know that Senator Cortez 
Masto asked to see the legal reasoning for your decision to end 
it. I would like to see that as well.
    You know, we have known about some concerns around the Main 
Street Lending Facility for months. In our last time together, 
I lamented the fact that I believe that Treasury and the Fed 
jointly set these terms too stringently and that many 
businesses in Arizona were unable to take advantage of them. So 
I would like to reiterate that I believe that the program 
should be continued and that eligibility should be expanded for 
the facility and the term sheet should be changed so we can 
help more businesses in need.
    Now, Chairman Powell, I have seen your take on this, and I 
know that you and Secretary Mnuchin do not agree on the 
extension of the Main Street Lending Facility. Do you think 
that households and businesses will risk having lower or higher 
borrowing costs because of the end of the Main Street Lending 
Facility?
    Mr. Powell. Actually, it is a little more complicated than 
that. The Congress gave the Secretary sole authority over the 
CARES Act funding. We play no role in that, and that is in 
distinction to the 13(3) facilities, which we designed together 
because we both have to approve. And the Secretary reads the 
law as he said, and really his voice is the authoritative one 
on that, and we accept that. We accept that reading of the law.
    So our point really was that other central banks--and any 
central banker would tell you that it is premature to be 
pulling back support for the economy, and the Secretary did 
indicate in his letter--and it is true--that we can either 
reestablish facilities or institute new facilities, and we can 
even have Exchange Stabilization Fund backing for that, 
provided the legal requirements are met.
    I hope that is responsive to your question.
    Senator Sinema. It is. Thank you.
    I see that my time has expired, Mr. Chairman. I do have a 
couple further questions, but I will submit those for the 
record.
    Chairman Crapo. Thank you, Senator Sinema. That concludes 
the questions. Senator Brown has asked for a little bit of time 
for closing remarks. Senator Brown.
    Senator Brown. Thank you, Mr. Chair, and thanks again for 
your service on this Committee.
    Mr. Chairman, Republicans told us today the only thing we 
set out to do is to stabilize the markets, and we have achieved 
those goals so we can end support to the facilities. Look 
around us. That is not the reality we are facing in our States. 
People are dying in larger numbers than ever before from this 
virus. Businesses are still closing. Sixty restaurant owners 
collectively told me yesterday that it is worse than it was in 
February, March, and April. People are increasingly worried 
about the virus. People are still losing jobs. They are working 
at unsafe jobs in an unsafe environment.
    Secretary Mnuchin ended programs that are still helping 
small and medium-sized businesses and helping State and local 
governments. He just simply did not need to do that.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    And that concludes the questioning from today's hearing. 
For Senators who wish to submit questions for the record, those 
questions are due to the Committee by Tuesday, December 8.
    To each of our witnesses, we ask that you respond to those 
questions as promptly as you can. I want to thank you each for 
joining the Committee today and for your service.
    This hearing is adjourned.
    [Whereupon, at 12:21 p.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    Today, we welcome the witnesses to the Committee to provide 
testimony as required under Title IV of the CARES Act: The Honorable 
Steven T. Mnuchin, Secretary of the Department of the Treasury; and The 
Honorable Jerome H. Powell, Chairman of the Board of Governors of the 
Federal Reserve System.
    On November 19, Treasury Secretary Mnuchin requested for the 
Federal Reserve to return unused funds that had been appropriated under 
Title IV of the CARES Act for 13(3) facilities and direct loans.
    I agree with Secretary Mnuchin on the success of the 13(3) 
facilities and the termination language in the CARES Act.
    The 13(3) facilities funded under the CARES Act were effective, and 
fulfilled their purpose to stabilize markets, facilitate credit flow, 
and provide liquidity.
    The Wall Street Journal editorial board summed it up well: ``All of 
these programs were created in an emergency at the onset of the 
pandemic when the financial markets were in danger of melting down.''
    Adding that, ``The programs worked. Even as the pandemic and 
Government shutdowns have waxed and waned, financial markets have 
healed. Lending spreads have fallen, and liquidity is ample in nearly 
all markets.''
    The most recent Federal Reserve Financial Stability Report pointed 
to some of these successes.
    It said, ``the announcements of the Primary Market Corporate Credit 
Facility, Secondary Market Corporate Credit Facility, and Municipal 
Liquidity Facility in late March and early April led to rapid 
improvements in corporate and municipal bond markets well ahead of the 
facilities' actual opening.''
    The report also said, `` . . . Since the announcement of the 
backstop facilities and funding market stabilization measures, more 
than $1 trillion in new nonfinancial corporate bonds and more than $250 
billion in municipal debt have been issued, purchased almost entirely 
by the private sector.''
    With respect to asset-backed securities, the report noted that, 
``Similar to other backstop facilities, while outstanding balances in 
the Term Asset-Backed Securities Loan Facility have remained modest, 
spreads in the asset-backed securities market have narrowed 
considerably, and private market issuance has resumed.''
    With just one month until the December 31 termination date, only 
$195 billion of the $454 billion needed to be allocated to the 13(3) 
facilities, and those facilities have not been extensively used to 
date.
    Returning the unused $455 billion to Treasury now allows those 
funds to be made available for other important purposes, such as 
providing more targeted relief to sectors of the economy that need it 
most, or to reduce the national debt.
    The CARES Act funding supporting these facilities was always 
intended to be temporary.
    Additionally, as was mentioned in both Secretary Mnuchin and 
Chairman Powell's letters, the Exchange Stabilization Fund still has 
non-CARES Act funds that are available, to the extent permitted by law, 
to capitalize any Federal Reserve lending facilities as needed.
    In fact, the Fed has four facilities that were set up with non-
CARES Act funds, including the commercial paper facility and money 
market liquidity facility.
    Although COVID-19 continues to spread across the United States and 
world, there is hope in the economic recovery that we have seen so far, 
and in the reports of promising, highly effective vaccine trials.
    However, we continue to look to steps we can take to help Americans 
and businesses that need it most.
    Republicans have tried for months to get another targeted, 
bipartisan COVID relief package passed and signed into law to provide 
support for those in need, but Democrats have rejected those efforts.
    It is time to find agreement where we can on targeted, bipartisan 
relief.
    Turning for a moment to regulations, the CARES Act included other 
meaningful pandemic-related programs to provide relief to Americans.
    I have heard from banks and credit unions concerned about breaking 
through regulatory thresholds that stand to impose a much greater 
regulatory burden due to the temporary growth they have experienced 
from customer deposits and participation in pandemic-related programs, 
like the Paycheck Protection Program and Economic Impact Payments.
    On November 20, the Fed, FDIC, and OCC took an important step to 
mitigating banks' regulatory burden by giving community banks under $10 
billion more flexibility to use their asset size on December 31, 2019, 
for applying various regulations.
    I appreciate the banking agencies taking this action, which will 
foster a more certain regulatory environment for these banks and 
incentivize their participation in future pandemic-related programs, 
should they be needed.
    Secretary Mnuchin, as you know, housing finance reform remains a 
top priority of mine, and last year I released a housing reform outline 
which builds upon many of the same principles from previous efforts.
    While my preference was for Congress to pass a bipartisan deal, it 
is long past time to make the hard decisions and address this last 
unfinished business of the financial crisis.
    Because of that I would encourage you and the Director of the FHFA 
to continue to take important steps that move the system in the right 
direction. The status quo is not acceptable.
    I thank each of you for joining the Committee today to discuss the 
CARES Act and other critically important issues.
    Before I turn to Senator Brown for his opening, I want to take some 
time to thank both Senators McSally and Jones for their contribution 
and time to this Committee.
    I have enjoyed working with them, spending time with them and 
getting to know them, and they will be missed. I wish them both the 
best.
    Finally, I want to thank Senator Brown and his staff for the time 
we have worked together on this Committee.
    I have appreciated our time together on this Committee, and our 
friendship, even if we, at times, may not have seen eye to eye. Thank 
you.
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Thank you, Chairman Crapo. Welcome Secretary Mnuchin and Chairman 
Powell.
    I'd first like to take a moment to thank Senator Jones and Senator 
McSally for their service on the Committee, and Chair Crapo for his 
leadership, decency, and patience. You can run, but you can't hide--I'm 
also on the Finance Committee.
    Also, I would like to thank your Staff Director Gregg Richard and 
the rest of your staff for their continued hard work.
    We've worked together to deliver results--working to strengthen our 
review of foreign investment, to hold Russia and North Korea 
accountable, to give American manufacturers the tools they need to 
compete through a strong Ex-Im Bank, and to continue to protect our 
communities from terrorism attacks.
    I also appreciate Chair Crapo and his staff's work to hold many of 
our hearings virtually during this pandemic--protecting all the people 
who work in the capitol from this virus shouldn't be a partisan issue, 
and on this Committee, it largely hasn't been. It's something I wish 
were true about more areas of our Government.
    Chair Powell and Secretary Mnuchin, in the 2 months since you were 
last here, the situation around the country has only gotten worse--the 
virus is spreading unchecked, job losses are up, and economic growth is 
declining.
    The number of new daily COVID-19 cases is up four-fold and daily 
deaths have more than doubled. In many parts of the country, the case 
numbers and hospitalizations are worse than in the spring.
    Just last week, 748.000 people filed for unemployment insurance. 
Millions more have been out of work since April.
    In October, 3.4 million homeowners were past due on their mortgages 
and many of them will run out of forbearance options by April. As many 
as 40 million renters will spend the holidays worrying that they'll be 
evicted on January 1st, if their Government doesn't do its job.
    Behind all these numbers are real families who are doing their 
best, trying to figure out how to get by. During Thanksgiving week, 
there were hours-long lines at food banks across the country.
    This is an extraordinary crisis that requires extraordinary 
action--but we have a President who has given up on leading the 
country.
    And as far as I can tell, Secretary Mnuchin, you're leaving the 
country worse off than you found it.
    With that record, it's pretty obvious why 80 million Americans 
decisively voted for new leadership.
    And rather than use your final months in office to work for the 
people you're supposed to serve, you appear to be trying to sabotage 
our economy on your way out the door.
    After the election, you canceled the Federal Reserve lending 
programs, taking away critical tools to invest in the people and 
communities and small businesses that make this country work.
    There is no legitimate justification for it.
    Either you're purposefully trying to stop President-elect Biden and 
Janet Yellen from getting to work for the people we all serve, or 
you're so delusional that you think because the stock market is back 
up, everything is fine.
    Either way, it's malpractice.
    It was only the end of October when you finally reduced the minimum 
loan size for the Main Street program to $100,000, so the program would 
actually work for small businesses and communities. But now, after all 
the waiting and adjusting, the Main Street program finally gets going 
and you take away another tool to help American businesses and workers.
    Even the policy head at the Chamber of Commerce said that shutting 
down the emergency lending programs ``closes the door on important 
liquidity options for businesses at a time when they need them most.''
    It's always the same story--when the biggest banks and the largest 
corporation needs help, their allies in Washington spring into action. 
But when the rest of the country needs investment and support, you want 
to pretend we can't afford it.
    You cited Congressional intent as a flimsy justification for your 
decision.
    I can tell you right now--we didn't intend for struggling 
businesses to have to wait over 3 months to have access to the lifeline 
provided in the CARES Act, we didn't intend for the loan requirements 
terms to be amended several times, and we certainly didn't intend for 
the legislation passed in March to be the only efforts the United 
States of America would take to fight a once-in-a-generation crisis.
    Anyone who has watched the news at all in the last month would know 
this is the time for action, not retreat.
    We're watching hospitals fill up again. Our health care system is 
getting overwhelmed. Gig workers and self-employed workers will lose 
their unemployment insurance at the end of the year. Small businesses 
and local governments are running out of money.
    It doesn't have to be this bad.
    We have the world's largest, greatest economy. We have the 
resources to rise to meet this challenge.
    But Secretary Mnuchin, you appear to believe this is the best we 
can do.
    In this election, Americans made it clear that they don't buy that.
    They've had enough of aiming low, of being told ``we can't do it, 
we can't solve problems, we can't govern, we can't afford it.''
    We know we can do better--we've done it before.
    Remember what Bill Spriggs told this Committee in September--we 
didn't win WWII by worrying about whether or not we could afford it. We 
were in a global crisis and we marshaled all of our vast resources and 
talent to rise to meet it--and then we grew the economy from the middle 
class out, and we paid down the debt with rising wages.
    And if we've learned anything from this crisis, it should be that 
we can do the same again.
    Remember what we did in March--we came together, we took action, 
and it made a real difference in people's lives. In the face of mass 
layoffs, we put money in people's pockets and helped them pay their 
bills and keep spending in the economy. We kept 13 million people out 
of poverty.
    And it helped everyone, including the stock market you love to brag 
about.
    There is no reason--other than a lack of political will--that we 
can't do the same again.
    A worker who is about to lose her job doesn't care about the date 
on the calendar or who is sitting at the Secretary's desk. They care 
about results.
    Secretary Mnuchin, if you and President Trump won't deliver them, 
the least you can do is get out of the way.
    I know Chair Powell has been clear in previous hearings that we 
need more stimulus to have any chance at a real, broad economic 
recovery--one that reaches beyond Wall Street to Main Streets in 
Cleveland and Boise and Scranton and across America, and that shows up 
in people's paychecks, not just corporate balance sheets.
    I hope today the American people will get reassurance that the 
Federal Reserve will be part of that effort.
    It's time for us to use every tool available to rise to meet the 
challenges before us, and to restore people's faith in our Government.
                                 ______
                                 
                PREPARED STATEMENT OF STEVEN T. MNUCHIN
                 Secretary, Department of the Treasury
                            December 1, 2020
    Chairman Crapo, Ranking Member Brown, and Members of the Committee, 
I am pleased to join you today to discuss the Department of the 
Treasury's unprecedented response to support the American people 
throughout the coronavirus pandemic. We continue to work to implement 
the historic CARES Act with speed, efficiency, and transparency, but 
our job will not be complete until we get every American back to work.
Economic Recovery
    When I last testified before you in September, I stated that 
America is in the midst of the fastest economic recovery from any 
crisis in U.S. history. I am proud to say that while there is more work 
to be done, that statement is even more true today. In the third 
quarter, GDP grew by 33.1 percent at an annual rate, beating all 
expectations and nearly doubling the previous record set in 1950.
    Americans are getting back to work. The October jobs report showed 
that the economy has gained back 12.1 million jobs since April--more 
than 50 percent of all jobs lost due to the pandemic. The private 
service-providing sector, which includes those industries that were 
most impacted by the initial economic shutdowns, has regained 58 
percent of the jobs lost. The unemployment rate has decreased to 6.9 
percent, a rate not expected by Blue Chip to be achieved until the 
fourth quarter of 2021.
    The historic, bipartisan CARES Act provided the economic relief 
critical to supporting our robust recovery. Additional economic 
shutdowns, however, continue to impair this remarkable progress and 
cause great harm to American businesses and workers.
Additional Economic Relief
    Based on recent economic data, I continue to believe that a 
targeted fiscal package is the most appropriate Federal response. I 
strongly encourage Congress to use the $455 billion in unused funds 
from the CARES Act to pass an additional bill with bipartisan support. 
The Administration is standing ready to support Congress in this effort 
to help American workers and small businesses that continue to struggle 
with the impact of COVID-19.
Transparency
    Treasury has been working hard to implement the CARES Act in a 
transparent and efficient manner. We have released a significant amount 
of information to the public on our website, Treasury.gov, and on 
USAspending.gov. In many instances, we have released more information 
than what is required by the statute.
    We continue to cooperate with various oversight bodies, including 
the new Special Inspector General for Pandemic Relief, the Treasury 
Inspector General, the Treasury Inspector General for Tax 
Administration, the new Congressional Oversight Commission, and the 
Government Accountability Office (GAO).
    We have provided regular updates to Congress, with this marking my 
eighth appearance before Congress for a CARES Act hearing. We have also 
devoted significant resources to responding to inquiries from numerous 
congressional committees and individual members of Congress on both 
sides of the aisle. We appreciate your interest in these issues, and we 
remain committed to working with you to accommodate Congress's 
legislative requests and to further advance our whole-of-Government 
approach to defeating COVID-19.
Conclusion
    I would like to thank the Members of the Committee for working with 
us to provide critical economic relief to the American people. I am 
pleased to answer any questions you may have.
                                 ______
                                 
                 PREPARED STATEMENT OF JEROME H. POWELL
        Chair, Board of Governors of the Federal Reserve System
                            December 1, 2020
    Chairman Crapo, Ranking Member Brown, and other Members of the 
Committee, thank you for the opportunity to update you on our ongoing 
measures to address the hardship wrought by the pandemic.
    Our public health professionals continue to deliver our most 
important response, and we remain grateful for their service.
    The Federal Reserve, along with others across Government, is using 
its policies to help alleviate the economic burden. Since the 
pandemic's onset, we have taken forceful actions to provide relief and 
stability, to ensure that the recovery will be as strong as possible, 
and to limit lasting damage to the economy.
    Economic activity has continued to recover from its depressed 
second-quarter level. The reopening of the economy led to a rapid 
rebound in activity, and real gross domestic product, or GDP, rose at 
an annual rate of 33 percent in the third quarter. In recent months, 
however, the pace of improvement has moderated.
    Household spending on goods, especially durable goods, has been 
strong and has moved above its prepandemic level. In contrast, spending 
on services remains low largely because of ongoing weakness in sectors 
that typically require people to gather closely, including travel and 
hospitality.
    The overall rebound in household spending is due, in part, to 
Federal stimulus payments and expanded unemployment benefits, which 
provided essential support to many families and individuals.
    In the labor market, more than half of the 22 million jobs that 
were lost in March and April have been regained, as many people were 
able to return to work. As with overall economic activity, the pace of 
improvement in the labor market has moderated. Although we welcome this 
progress, we will not lose sight of the millions of Americans who 
remain out of work. The economic downturn has not fallen equally on all 
Americans, and those least able to shoulder the burden have been 
hardest hit. In particular, the high level of joblessness has been 
especially severe for lower-wage workers in the services sector, for 
women, and for African Americans and Hispanics. The economic 
dislocation has upended many lives and created great uncertainty about 
the future.
    As we have emphasized throughout the pandemic, the outlook for the 
economy is extraordinarily uncertain and will depend, in large part, on 
the success of efforts to keep the virus in check.
    The rise in new COVID-19 cases, both here and abroad, is concerning 
and could prove challenging for the next few months. A full economic 
recovery is unlikely until people are confident that it is safe to 
reengage in a broad range of activities.
    Recent news on the vaccine front is very positive for the medium 
term. For now, significant challenges and uncertainties remain, 
including timing, production and distribution, and efficacy across 
different groups. It remains difficult to assess the timing and scope 
of the economic implications of these developments with any degree of 
confidence.
    The Federal Reserve's response has been guided by our mandate to 
promote maximum employment and stable prices for the American people, 
along with our responsibilities to promote the stability of the 
financial system. We have been taking broad and forceful actions to 
more directly support the flow of credit in the economy. Our actions, 
taken together, have helped unlock almost $2 trillion of funding to 
support businesses large and small, nonprofits, and State and local 
governments since April. This, in turn, has helped keep organizations 
from shuttering and has put employers in both a better position to keep 
workers on and to hire them back as the economy continues to recover.
    These programs serve as a backstop to key credit markets and have 
helped restore the flow of credit from private lenders through normal 
channels. We have deployed these lending powers to an unprecedented 
extent. Our emergency lending powers require the approval of the 
Treasury and are available only in very unusual circumstances, such as 
those we find ourselves in today. Many of these programs have been 
supported by funding from the Coronavirus Aid, Relief, and Economic 
Security Act (CARES Act), and I have included detailed information 
about those facilities in my written testimony.
    The CARES Act assigns sole authority over its funds to the Treasury 
Secretary, subject to the statute's specified limits. The Secretary has 
indicated that these limits do not permit the CARES Act-funded 
facilities to make new loans or purchase new assets after December 31 
of this year. Accordingly, the Federal Reserve will return the unused 
portion of funds allocated to the lending programs that are backstopped 
by the CARES Act in connection with their termination at the end of 
this year. As the Secretary noted in his letter, non-CARES Act funds in 
the Exchange Stabilization Fund are available to support emergency 
lending facilities if they are needed.
    Everything the Fed does is in service to our public mission. We are 
committed to using our full range of tools to support the economy and 
to help assure that the recovery from this difficult period will be as 
robust as possible on behalf of communities, families, and businesses 
across the country.
    Thank you. I look forward to your questions.
Summary of Section 13(3) Facilities Using CARES Act Funding
The Municipal Liquidity Facility
    The Municipal Liquidity Facility (MLF) helps State and local 
governments better manage the extraordinary cash flow pressures 
associated with the pandemic, in which expenses, often for critical 
services, are temporarily higher than normal and tax revenues are 
delayed or temporarily lower than normal. This facility addresses these 
liquidity needs by purchasing the short-term notes typically used by 
these Governments, along with other eligible public entities, to manage 
their cash flows. By addressing the cash management needs of eligible 
issuers, the MLF was also intended to encourage private investors to 
reengage in the municipal securities market, including across longer 
maturities, thus supporting overall municipal market functioning.
    Under the MLF, the Federal Reserve Bank of New York lends to a 
special purpose vehicle (SPV) that will directly purchase up to $500 
billion of short-term notes issued by a range of eligible State and 
local government entities. Generally speaking, eligible issuers include 
all U.S. States, counties with a population of at least 500,000 
residents, cities with a population of at least 250,000 residents, 
certain multistate entities, and revenue-bond issuers designated as 
eligible issuers by their State governors. Notes purchased by the 
facility carry yields designed to promote private market 
participation--that is, they carry fixed spreads based on the long-term 
rating of the issuer that are generally larger than those seen in 
normal times. With funding from the Coronavirus Aid, Relief, and 
Economic Security Act (CARES Act), the Department of the Treasury has 
committed to make a $35 billion equity investment in the SPV.
    The MLF was announced on April 9, 2020, and closed its first 
transaction on June 5. As of November 25, the facility had purchased 
two issues for a total outstanding amount of $1.7 billion.
    The MLF has contributed to a strong recovery in municipal 
securities markets, which has facilitated a historic issuance of 
approximately $275 billion of bonds since late March. State and local 
governments and other municipal bond issuers of a wide spectrum of 
types, sizes, and ratings have been able to issue bonds, including long 
maturity bonds, with interest rates that are at or near historical 
lows. Those municipal issuers that do not have direct access to the 
Federal Reserve under the MLF have still benefited substantially from a 
better-functioning municipal securities market.
The Main Street Lending Program
    The Federal Reserve established the Main Street Lending Program 
(Main Street) to support lending to small and medium-sized businesses 
and nonprofit organizations that were in sound financial condition 
before the onset of the COVID-19 pandemic. These businesses and 
nonprofits have good longer-term prospects but have encountered 
temporary cash flow problems due to the pandemic and, as a result, are 
not able to get credit on reasonable terms. In addition to providing 
loans for borrowers in current need of funds, Main Street offers a 
credit backstop for firms that do not currently need funding but may if 
the pandemic continues to erode their financial condition.
    Under Main Street, the Federal Reserve Bank of Boston has set up 
one SPV to manage and operate five facilities: the Main Street New Loan 
Facility (MSNLF), the Main Street Priority Loan Facility (MSPLF), the 
Main Street Expanded Loan Facility (MSELF), the Nonprofit Organization 
New Loan Facility (NONLF), and the Nonprofit Organization Expanded Loan 
Facility (NOELF). The SPV will purchase up to $600 billion in Main 
Street loan participations, while lenders retain a percentage of the 
loans. Main Street loans have a 5-year maturity, no principal payments 
in the first 2 years, and no interest payments in the first year. 
Businesses with less than 15,000 employees or 2019 revenues of less 
than $5 billion are eligible to apply for Main Street loans. Available 
loan sizes span from $100,000 to $300 million across the facilities and 
depend on the size and financial health of the borrower. With funding 
from the CARES Act, the Department of the Treasury has committed to 
make a $75 billion equity investment in the SPV.
    The business facilities (MSNLF, MSPLF, and MSELF) and nonprofit 
facilities (NONLF and NOELF) have broadly similar terms but differ in 
their respective underwriting standards.
    The business facilities use the same eligibility criteria for 
lenders and borrowers and have many of the same terms, while other 
features of the loans extended in connection with each facility differ. 
The loan types also differ in how they interact with the borrower's 
outstanding debt, including with respect to the level of precrisis 
indebtedness a borrower may have incurred. Similarly, the nonprofit 
facilities have many of the same characteristics, but some features of 
the loans extended in connection with each facility differ. Eligible 
lenders may originate new loans under MSNLF, MSPLF, and NONLF or may 
increase the size of existing loans under MSELF and NOELF.
    Main Street became operational on July 6, 2020. The Federal Reserve 
and the Department of the Treasury have modified the program several 
times to reflect extensive consultations with stakeholders, most 
recently by lowering the minimum loan threshold and adjusting fees to 
make the program more accessible. As of November 25, nearly 600 lenders 
representing more than half of U.S. banking assets have registered to 
participate in the program, and the program has purchased just under $6 
billion in participations.
    Since Main Street became operational, the number of registered 
lenders and the amount of loan participations continue to increase. 
Program usage will depend on the course of the economy, the demand for 
credit by small and medium-sized businesses, and the ability of lenders 
to meet credit needs outside the Main Street program. Demand for Main 
Street loans may increase over time if the pandemic continues to affect 
the ability of businesses and nonprofits to access credit through 
normal channels and as other support programs expire.
The Secondary Market Corporate Credit Facility
    The Secondary Market Corporate Credit Facility (SMCCF) is designed 
to work alongside the Primary Market Corporate Credit Facility (PMCCF), 
discussed later, to support the flow of credit to large investment-
grade U.S. companies so that they can maintain business operations and 
capacity during the period of dislocation related to COVID-19. The 
SMCCF supports market liquidity by purchasing, in the secondary market, 
corporate bonds issued by investment-grade U.S. companies, by U.S. 
companies that were investment grade before the onset of the pandemic 
and remain near investment grade, and by U.S.-listed exchange-traded 
funds (ETFs) whose investment objective is to provide broad exposure to 
the market for U.S. corporate bonds.
    Under the SMCCF, the Federal Reserve Bank of New York lends to an 
SPV that purchases in the secondary market both corporate bond 
portfolios in the form of ETFs and individual corporate bonds to track 
a broad market index. The SMCCF purchases ETF shares and corporate 
bonds at fair market value in the secondary market and avoids 
purchasing shares of ETFs when they trade at prices that materially 
exceed the estimated net asset value of the underlying portfolio. The 
pace of purchases is a function of the condition of the U.S. corporate 
bond markets. With funding from the CARES Act, the Department of the 
Treasury has committed to make a $75 billion equity investment in the 
SPV for the PMCCF and SMCCF, with a $25 billion allocation toward the 
SMCCF.
    The SMCCF staggered its launch of ETF and bond purchases in order 
to act as quickly and effectively as possible. Through ETF purchases 
beginning on May 12, 2020, the SMCCF provided liquidity to the 
corporate bond market relatively quickly. The Federal Reserve began 
direct corporate bond purchases under the broad market index purchase 
program on June 16. In its first week of bond purchases, the SMCCF was 
purchasing about $370 million per day. As of November 25, purchases 
have been slowed to a current daily pace of approximately $20 million 
of bonds and no ETFs, and the total SMCCF outstanding value has reached 
$13.6 billion.
    The SMCCF's announcement effect was strong, quickly improving 
market functioning and unlocking the supply of hundreds of billions of 
dollars of private credit. Since late March, more than $1.6 trillion in 
corporate bonds have been issued without direct Government or taxpayer 
involvement. The SMCCF has materially reduced its pace of purchases 
over the past few months as a result of the substantial improvements in 
the functioning of the U.S. corporate bond markets. The pace of 
purchases going forward will continue to be guided by measures of 
market functioning, increasing when conditions deteriorate and 
decreasing when conditions improve.
The Primary Market Corporate Credit Facility
    The Primary Market Corporate Credit Facility (PMCCF) is designed to 
work alongside the Secondary Market Corporate Credit Facility (SMCCF) 
to support the flow of credit to large investment-grade U.S. companies 
so that they can maintain business operations and capacity during the 
period of dislocation related to COVID-19. The PMCCF supports market 
liquidity by serving as a funding backstop for corporate debt.
    Under the PMCCF, the Federal Reserve Bank of New York lends to an 
SPV. The SPV will purchase qualifying bonds and syndicated loans with 
maturities up to 4 years. With funding from the CARES Act, the 
Department of the Treasury has committed to make a $75 billion equity 
investment in the SPV for the PMCCF and SMCCF, with a $50 billion 
allocation toward the PMCCF.
    The dual announcement of the PMCCF and SMCCF was well received by 
the market. Between March 23 and April 6, 2020, credit spreads for 
investment-grade bonds declined substantially. As of November 25, there 
have not been any PMCCF transactions, nor have any indications of 
interest been received. While the PMCCF has not purchased any bonds 
since it opened, it serves as a backstop should markets enter another 
period of stress.
The Term Asset-Backed Securities Loan Facility
    The Term Asset-Backed Securities Loan Facility (TALF) supports the 
flow of credit to consumers and businesses by enabling the issuance of 
asset-backed securities (ABS) guaranteed by newly and recently 
originated consumer and business loans.
    Under the TALF, the Federal Reserve Bank of New York lends to an 
SPV. The SPV will make up to $100 billion of 3-year term loans 
available to holders of certain triple-A-rated ABS backed by student 
loans, auto loans, credit card loans, loans guaranteed by the Small 
Business Administration (SBA), and certain other assets. The Federal 
Reserve lends an amount equal to the market value of the ABS less a 
haircut, and the loan is secured at all times by the ABS. With funding 
from the CARES Act, Department of the Treasury has committed to make a 
$10 billion equity investment in the SPV.
    As of November 25, the TALF has extended $3.8 billion in loans 
since its launch on May 20, 2020. Loans have been collateralized by 
SBA-guaranteed ABS, commercial mortgage-backed securities (CMBS), and 
ABS secured by insurance premium finance loans or student loans.
    The announcement and presence of the TALF has substantially helped 
improve liquidity in the ABS markets, including those for CMBS and 
collateralized loan obligations, with spreads in some ABS sectors 
returning close to normal levels. The TALF interest rates are 
attractive to borrowers when market conditions are stressed but not 
under normal conditions. While the facility is authorized to extend up 
to $100 billion in loans, total take-up will likely be much less unless 
ABS market conditions worsen.
        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                     FROM STEVEN T. MNUCHIN

Q.1. As you know, the hospitality industry was exempt from the 
SBA's affiliation rules, thus allowing and the predictable 
result was that many large hotel corporations, real estate 
investors and private equity firms applied for and received 
multiple PPP loans for the various hotels they owned.
    For example, affiliates of luxury hotel company Omni Hotels 
& Resorts received separate PPP loans for 32 of its owned 
hotels and the aggregate total of those loans was between 
$52,000,000 and $120,000,000, according to SBA data. Several 
Omni properties that received PPP loans were closed during the 
applicable period, and at many of the others, only limited 
staff has been employed since the end of March. At five of 
those properties that received PPP loans and are represented by 
the hospitality union UNITE HERE, virtually all of the 
employees represented by UNITE HERE remain unemployed and most 
lost their health insurance.
    There are other similar examples of large real estate 
interests that received multiple PPP loans for their hotel real 
estate holdings, even though most or all of the employees at 
their hotels had already been, and remain, laid off and without 
health benefits to this day.
    If it is determined that a company receiving multiple PPP 
loans never seriously considered using a substantial amount of 
that PPP funding for paychecks or benefits for employees, would 
you consider that to be an abuse of the PPP program?
    Is there any appropriate reason to forgive any portion of a 
PPP loan to a borrower who did not attempt to use the proceeds 
to fund paychecks or benefits?

A.1. The Small Business Administration (SBA) will review all 
Paycheck Protection Program (PPP) loans of $2 million and 
greater, and other PPP loans under $2 million as appropriate, 
for fraud, abuse, and compliance with program requirements, as 
well as for the accuracy of PPP borrowers' certifications. SBA 
will also review a statistically valid sample of loans less 
than $2 million. The Department of Justice is also actively 
pursuing cases that involve potential fraud, and SBA and 
Treasury will support those efforts as appropriate to continue 
advancing program integrity.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TILLIS
                     FROM STEVEN T. MNUCHIN

Q.1. As the response to the COVID-19 pandemic continues, many 
niche industries face a long, grim road to recovery. One of 
these is the motorcoach industry. Some estimates predict that 
up to 40 percent of these small businesses will cease to 
function by year's end without targeted relief, at the cost of 
tens of thousands of jobs and severe damage to our overall 
transportation network.
    Can Treasury consider targeted measures to ensure these 
motorcoach carriers remain viable until there is opportunity 
for recovery?

A.1. Congress recently passed on an overwhelmingly bipartisan 
basis, and President Trump signed, the Coronavirus Response and 
Relief Supplemental Appropriations Act, as part of the 
Consolidated Appropriations Act of 2021, which includes an 
additional $2 billion in assistance to the transportation 
industry, including the motorcoach industry.

Q.2. If targeted relief cannot be provided by Treasury to 
bridge the crisis, will the Administration support inclusion of 
the CERTS Act in a COVID relief or stimulus package to be 
negotiated between Congress and the Administration?

A.2. Congress recently passed on an overwhelmingly bipartisan 
basis, and President Trump signed, the Coronavirus Response and 
Relief Supplemental Appropriations Act, as part of the 
Consolidated Appropriations Act of 2021, which includes an 
additional $2 billion in assistance to the transportation 
industry, including the motorcoach industry.

Q.3. In your Housing Finance Reform Plan from September 2019, 
you state that to end conservatorship of Fannie and Freddie, 
they should each be able to operate safely and soundly and 
without posing an undue systemic risk. You also state several 
minimum preconditions for FHFA as it considers exiting GSEs 
from conservatorship.
    Can you comment on the potential adverse market 
consequences if the GSEs are rushed out of conservatorship 
without the Treasury's recommended minimum preconditions being 
met?

A.3. As Treasury made clear in its September 2019 Housing 
Reform Plan, \1\ building sufficient capital is critical for 
the GSEs' path out of conservatorship and to protect taxpayers. 
Additional changes to the PSPAs may be appropriate to 
facilitate this objective. No decision on changes to the PSPAs 
has been made. Treasury continues to support housing finance 
reform that preserves access to mortgage credit in all market 
conditions as a part of robust and liquid residential finance 
lending markets.
---------------------------------------------------------------------------
     \1\ https://home.treasury.gov/system/files/136/Treasury-Housing-
Finance-Reform-Plan.pdf
---------------------------------------------------------------------------
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
          SENATOR CORTEZ MASTO FROM STEVEN T. MNUCHIN

Q.1. Please provide the legal analysis and reasoning to justify 
returning funds used to backstop the Federal Reserve's 
facilities to Treasury.

A.1. Based on his personal involvement negotiating and working 
with Congress to draft the relevant provisions, the Secretary 
believes Congress's intent, as outlined in Section 4029 of the 
Coronavirus Aid, Relief, and Economic Security (CARES) Act, was 
to have the authority to make new loans or loan guarantees, or 
purchase new assets (either directly or indirectly), expire on 
December 31, 2020. Consistent with this position, Congress has 
rescinded unused CARES Act funds and appropriated funds to 
provide additional support for American workers and businesses 
in sectors that are experiencing serious difficulties.

Q.2. Does the White House believe there is a need for rental 
assistance? If so, how much money does the Administration 
believe is needed?

A.2. Congress recently passed on an overwhelmingly bipartisan 
basis, and President Trump signed, the Coronavirus Response and 
Relief Supplemental Appropriations Act, as part of the 
Consolidated Appropriations Act of 2021, which includes $25 
billion in rental assistance for struggling American 
households.

Q.3. What policies is the Administration offering to leisure 
and hospitality businesses and workers to support them until a 
vaccine is distributed?

A.3. Treasury is committed to providing support for American 
workers and businesses. That is why we worked with Congress on 
a bipartisan basis to pass a Phase IV relief package that 
includes $284.45 in additional PPP funding. The bipartisan 
relief package expanded allowable and forgivable PPP expenses 
to include supplier costs on existing contracts and purchase 
orders, including the cost for perishable goods at any time, 
costs relating to worker protective equipment and adaptive 
costs, and technology operations expenditures. These expanded 
forgivable expenses will directly benefit leisure and 
hospitality businesses when they apply for a first or second 
PPP loan. In addition, borrowers assigned to industry NAICS 
code 72 (Accommodation and Food Services), which have been 
directly affected by onerous State and local restrictions, can 
now also receive a PPP second draw loan equal to 3.5x their 
average monthly payroll costs.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                     FROM STEVEN T. MNUCHIN

Q.1. In November, the Federal Housing Finance Agency (FHFA) 
released its final rule on a new regulatory capital framework 
for Fannie Mae and Freddie Mac.
    Given that the rulemaking is another step closer to ending 
Fannie Mae and Freddie Mac's conservatorship, are Treasury and 
the FHFA planning to release the Enterprises from 
conservatorship before January 20, 2021?
    What impact would an early release have on home owners?
    What impact would an early release have on savers who have 
mortgage-backed assets in their pension and retirement funds?
    Has Treasury analyzed the impacts of an early release?
    Can you provide any assurances that an early exit from 
conservatorship is not being contemplated by the Treasury?

A.1. As Treasury made clear in its September 2019 Housing 
Reform Plan, \1\ building sufficient capital is critical for 
the GSEs' path out of conservatorship and to protect taxpayers. 
Additional changes to the Senior Preferred Stock Purchase 
Agreements (PSPAs) between Treasury and the GSEs may be 
appropriate to facilitate this objective. No decision on 
changes to the PSPAs has been made. Treasury continues to 
support housing finance reform that preserves access to 
mortgage credit in all market conditions as a part of robust 
and liquid residential finance lending markets.
---------------------------------------------------------------------------
     \1\ https://home.treasury.gov/system/files/136/Treasury-Housing-
Finance-Reform-Plan.pdf

Q.2. In November, you requested the Federal Reserve return 
unused funds provided by the CARES Act, indicating your intent 
to end the temporary 13(3) emergency credit facilities, 
including the Primary and Secondary Market Corporate Credit 
Facilities, the Municipal Liquidity Facility, the Main Street 
program, and the Term Asset-Backed Loan Facility.
    What is your rationale behind ending these programs instead 
of attempting to improve program uptake or reach?

A.2. Based on his personal involvement negotiating and working 
with Congress to draft the relevant provisions, the Secretary 
believes Congress's intent, as outlined in Section 4029 of the 
CARES Act, was to have the authority to make new loans or loan 
guarantees, or purchase new assets (either directly or 
indirectly), expire on December 31, 2020. Consistent with this 
position, Congress has rescinded unused CARES Act funds and 
appropriated funds to provide additional support for American 
workers and businesses in sectors that are experiencing serious 
difficulties.

Q.3. Has the Treasury quantified the potential economic output 
by businesses that might be realized if the emergency 
facilities are extended and improved?
    Has the Treasury quantified any potential economic output 
in terms of increased employment?
    What economic stimulus plans have you suggested for the 
reallocation of unappropriated funds to assist small to mid-
sized business?

A.3. Based on his personal involvement negotiating and working 
with Congress to draft the relevant provisions, the Secretary 
believes Congress's intent, as outlined in Section 4029 of the 
CARES Act, was to have the authority to make new loans or loan 
guarantees, or purchase new assets (either directly or 
indirectly), expire on December 31, 2020. Consistent with this 
position, Congress rescinded unused CARES Act funds and 
appropriated funds to provide additional support for American 
workers and businesses in sectors that are experiencing serious 
difficulties.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
                     FROM JEROME H. POWELL

Q.1. Chairman Powell, as you know, the Federal Reserve Board's 
rules regarding debit card interchange fees and routing 
includes a provision exempting small issuers (those with less 
than $10 billion in assets) from the interchange fee 
limitations. Recently, the federal bank regulatory agencies 
announced an interim final rule that, in part, provides 
temporary relief related to this exemption for certain 
community banking organizations that would otherwise have 
crossed the threshold simply as a result of their growth in 
their assets due to their participation in critical Government 
programs aimed at responding to the COVID-19 pandemic. 
Specifically, with regard to the requirements covered by the 
interim final rule, certain community banking organizations 
that would have crossed the $10 billion threshold under the 
interchange rule in 2020 would have their assets measured as of 
December 31, 2019. While I appreciate regulators' efforts to 
provide much-needed relief to these financial institutions, I 
remain concerned that this adjustment does not provide enough 
flexibility for banks hovering at the $10 billion threshold. 
Such banks were critical participants in relief programs such 
as the PPP, and their continued participation in relief 
programs will continue to be crucial to recovery. As such, it 
would appear advisable for this temporary relief related to the 
interchange rules to be extended through December 31, 2021, to 
allow more time for banks to roll new assets off their balance 
sheets and, as importantly, to continue to provide relief to 
customers in lieu of racing to shrink their balance sheets back 
below $10 billion before December 31, 2021.
    In light of this, will you commit to working with me and my 
staff to resolve these concerns and ensure that these community 
banks can again actively participate in future COVID-19 
response programs without being concerned about the significant 
regulatory burdens that would otherwise result from crossing 
this critical asset threshold?

A.1. The interim final rule that the Federal Reserve Board 
(Board), the Federal Deposit Insurance Corporation, and the 
Office of the Comptroller of the Currency announced on November 
20, 2020, provides temporary relief for community banking 
organizations whose assets have grown during COVID-19, in many 
cases because of participation in Federal coronavirus response 
programs, such as the Paycheck Protection Program (PPP). In 
particular, the interim final rule permits banking 
organizations that would have crossed Regulation II's $10 
billion threshold as of December 31, 2020, and thus become 
subject to the debit card interchange fee cap, to instead 
measure their assets as of December 31, 2019, for purposes of 
determining whether the firm is subject to the interchange fee 
cap in 2021. You expressed concern that the period for this 
relief is too short and should be extended through 2021 to 
allow more time for banks who are participating in Federal 
COVID-19 response programs to roll new assets off their balance 
sheets.
    As you may be aware, the interim final rule public comment 
period closed on February 1, 2021. The Board will carefully 
consider the points presented in your question in the Board's 
review of comments to the interim final rule.
    As the interim final rule stated, the last day for lenders 
to make PPP loans as originally authorized under the 
Coronavirus Aid, Relief, and Economic Security Act (CARES Act) 
was August 8, 2020, and a significant amount of the PPP loans 
that were extended by that date will likely be forgiven by the 
first calendar quarter of 2021. The Small Business 
Administration recently released a simpler loan forgiveness 
application for PPP loans of $50,000 or less, which will likely 
result in PPP-related assets being removed from community 
banking organizations' balance sheets at a faster rate.
    The Board also recognizes that other Federal COVID-19 
response programs in the future, including the recently 
authorized new round of PPP lending, could affect banks' 
balance sheet growth. The Board, in conjunction with the other 
Federal bank regulatory agencies, will continue to consider and 
evaluate this issue, particularly in light of COVID-19, to 
assess whether further temporary relief would be appropriate.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
             SENATOR MENENDEZ FROM JEROME H. POWELL

Q.1. Last month, a Treasury Department spokesperson said that 
Treasury plans to put the $429 billion the Department is 
withdrawing from the Federal Reserve's lending facilities into 
the Treasury's General Fund. However, Section 4027 of the CARES 
Act, the section that provides Treasury with the appropriation 
of these funds, states, ``On January 1, 2026, any funds 
described in paragraph (1) that are remaining shall be 
transferred to the general fund of the Treasury.''
    Chair Powell, will you commit to not return any funds to 
the Treasury until the Secretary assures Congress and the 
public that those funds will remain in the Exchange 
Stabilization Fund as required by the CARES Act? If not, please 
explain why not since the CARES Act specifically states, ``on 
January 1, 2026,'' not ``by'' or ``no later than'' that date?
    If you cannot make this commitment, can you please identify 
the authority with which you believe Secretary Mnuchin has the 
right to move these funds into the General Fund before the 
January 1, 2026, date specified in the CARES Act?

A.1. The Consolidated Appropriations Act, 2021, amended the 
Coronavirus Aid, Relief, and Economic Security Act (CARES Act) 
to require that, after December 31, 2020, (with the exception 
of the Main Street Lending Program (Main Street), which was 
granted an extension through January 8, 2021), the Federal 
Reserve shall not make any new purchases under facilities that 
are supported using funds allocated to the U.S. Department of 
the Treasury (Treasury) under the CARES Act. In addition, the 
Consolidated Appropriations Act, 2021, rescinded the 
appropriation for the unobligated portion of these funds. 
Accordingly, in early January, the Federal Reserve returned 
approximately $62 billion of the funds contributed to the CARES 
Act facilities by the Treasury and removed the commitment to 
contribute additional funds.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
           SENATOR CORTEZ MASTO FROM JEROME H. POWELL

Q.1. If the incoming Treasury Secretary restores Congress' 
appropriation to the Exchange Stabilization Fund, how would 
implementation work operationally at the Fed?

A.1. Section 1005 of the Consolidated Appropriations Act, 2021, 
amended the Coronavirus Aid, Relief, and Economic Security Act 
(CARES Act) to require that, after December 31, 2020, (with the 
exception of the Main Street Lending Program (Main Street) 
which was granted an extension through January 8, 2021), the 
Federal Reserve shall not make any new purchases under 
facilities that are supported using funds allocated to the U.S. 
Department of the Treasury (Treasury) under the CARES Act. 
Accordingly, the Federal Reserve ceased the extension of credit 
under those emergency lending facilities backed with funds 
appropriated under the CARES Act and, as required by law, the 
Federal Reserve will not make new purchases under these 
facilities.

Q.2. If the funds are returned, can the Federal Reserve 
continue to make loans under its emergency lending facilities?

A.2. As noted above, in accordance with section 1005 of the 
Consolidated Appropriations Act, 2021, the Federal Reserve 
ceased the extension of credit under those emergency lending 
facilities backed with funds appropriated under the CARES Act 
on December 31, 2020, with the exception of Main Street, which 
was granted an extension through January 8, 2021. In addition 
to Main Street, facilities backed with funds appropriated 
through the CARES Act include the Municipal Liquidity Facility 
(MLF), the Term Asset-Backed Securities Loan Facility (TALF), 
the Primary Market Corporate Credit Facility (PMCCF), and the 
Secondary Market Corporate Credit Facility (SMCCF).
    The remaining Federal Reserve emergency lending 
facilities--the Commercial Paper Funding Facility (CPFF), Money 
Market Mutual Fund Liquidity Facility (MMLF), Paycheck 
Protection Program Liquidity Facility (PPPLF), and the Primary 
Dealer Credit Facility (PDCF)--do not make use of funds 
appropriated under section 4003(b) of the CARES Act and will 
remain available through March 31, 2021, unless extended.

Q.3. Can the Federal Reserve operate lending programs without 
Treasury funds as a backstop? Can the Federal Reserve use 
repaid Main Street loans to make new loans to businesses?

A.3. Section 13(3) of the Federal Reserve Act authorizes the 
Federal Reserve to establish an emergency lending facility 
under unusual and exigent circumstances. By law, the loans that 
the Federal Reserve extends must be satisfactorily secured and 
sufficient to protect taxpayers from loss. In determining 
whether an emergency lending facility meets these requirements, 
the Federal Reserve considers the terms and conditions of the 
facility and any other relevant factors, such as the existence 
of an investment made by the Treasury. Certain emergency 
lending facilities established by the Federal Reserve were 
backed by funds invested by the Treasury, while other 
facilities--such as the PDCF and the PPPLF--are not backed by 
funds invested by the Treasury. However, the Department of 
Treasury must approve of any emergency lending facility, 
whether the Treasury provides funds or not.
    With respect to Main Street, section 1005 of the 
Consolidated Appropriations Act, 2021, amended the CARES Act to 
require that, after January 8, 2021, the Federal Reserve not 
make any new purchases.

Q.4. What policies, if any, has the Federal Reserve put in 
place to create a more diverse, equitable, and inclusive 
workplace?

A.4. The Federal Reserve Board (Board) is dedicated to 
developing and sustaining a diverse and inclusive workforce. 
The Diversity and Inclusion Strategic Plan 2016-19, published 
in 2016, provides the foundation to guide the Board's efforts 
in creating and sustaining a high-performing workforce that 
embraces diversity and empowers all employees to achieve their 
full potential. In further support of its commitment, the Board 
has in place strategic objectives to attract, hire, develop, 
promote, and retain a highly skilled and diverse workforce. We 
continue to address strengthening a diverse, equitable, and 
inclusive culture and workplace through our policies and 
practices. We strive to learn from our experiences and adhere 
to best practices. Through these and other intentional and 
coordinated actions we ensure our continued commitment:

  <bullet>  Frequent engagements and activities for the entire 
        Board staff and for smaller groups that encourage and 
        enable employees' sharing of experiences addressing 
        diversity, equity, and inclusion.

  <bullet>  Promotion and support for Employee Resource Groups. 
        \1\ These groups hold educational events and 
        activities, and help identify and drive Talent 
        Acquisition, On-Boarding, Career Development, and 
        Culture change initiatives.
---------------------------------------------------------------------------
     \1\ See https://www.federalreserve.gov/careers-diversity.htm for a 
list of Employee Resource Groups.

  <bullet>  Provision of professional development programs, 
        including mentoring, rotation assignments, coaching, 
---------------------------------------------------------------------------
        and leadership training.

  <bullet>  Ongoing focus on succession and workforce planning 
        to address future workforce needs and strengthen the 
        diversity of the managerial pipeline and progression to 
        leadership positions.

  <bullet>  Intensive recruiting to ensure diverse candidates 
        for job vacancies. This includes outreach to diverse 
        professional networks, usage of diversity job boards, 
        and attendance at job fairs at Hispanic-Serving 
        Institutions and Historically Black Colleges and 
        Universities.

  <bullet>  Required training for hiring managers focused on 
        hiring without bias.
              Additional Material Supplied for the Record
             STATEMENT OF CUNA, SUBMITTED BY CHAIRMAN CRAPO
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            STATEMENT OF NAFCU, SUBMITTED BY CHAIRMAN CRAPO
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



             STATEMENT OF NAR, SUBMITTED BY CHAIRMAN CRAPO
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            TREASURY RESPONSE, SUBMITTED BY SENATOR MENENDEZ
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



               KTKR ARTICLE, SUBMITTED BY SENATOR WARNER
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
